No. _____
IN THE

Supreme Court of the United States
___________

ADAM JARCHOW AND MICHAEL D. DEAN,
v.

Petitioners,

STATE BAR OF WISCONSIN, ET AL.,
___________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
___________
PETITION FOR WRIT OF CERTIORARI
___________
RICHARD M. ESENBERG
WISCONSIN INSTITUTE
FOR LAW & LIBERTY
330 East Kilbourn Ave.
Milwaukee, WI 53202

DAVID B. RIVKIN, JR.
Counsel of Record
ANDREW M. GROSSMAN
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731
drivkin@bakerlaw.com

i
QUESTION PRESENTED
In Janus v. AFSCME, 138 S. Ct. 2448 (2018), the
Court held that State laws compelling public employees to subsidize the speech of labor unions violate the
First Amendment, overruling Abood v. Detroit Board
of Education, 431 U.S. 209 (1977). The same improperly “deferential standard” that Abood espoused underpins the two decisions of the Court—Lathrop v.
Donohue, 367 U.S. 820 (1961), and Keller v. State Bar
of California, 496 U.S. 1 (1990)—permitting States
like Wisconsin to compel attorneys to be members of
an “integrated bar” and fund its speech and advocacy
on matters of substantial public concern. Accordingly,
the question presented is:
Whether Lathrop and Keller should be overruled
and “integrated bar” arrangements like Wisconsin’s
invalidated under the First Amendment.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioners Adam Jarchow and Michael D. Dean
were Plaintiffs-Appellants in the court below.
Respondents, who were Defendants-Appellees in
the court below, are the State Bar of Wisconsin, the
State Bar of Wisconsin Board of Governors, Christopher Rogers, Jill Kastner, Starlyn Tourtillott, Kathleen Brost, Eric L. Andrews, and Kori Ashley.
Because Petitioners are not corporations, a corporate disclosure statement is not required under Supreme Court Rule 29.6.

iii
STATEMENT OF RELATED PROCEEDINGS
There are no other court proceedings “directly related” to this case within the meaning of Rule
14(b)(iii).

iv
TABLE OF CONTENTS
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 3
JURISDICTION ......................................................... 3
STATUTES INVOLVED ............................................ 3
STATEMENT OF THE CASE ................................... 3
A.

Wisconsin’s Integrated Bar ............................. 3

B.

The State Bar’s Speech and Advocacy ............ 5

C.

Proceedings Below ........................................... 7

REASONS FOR GRANTING THE PETITION ........ 9
I.

Lathrop and Keller Cannot Be Reconciled with
Janus and the Rest of This Court’s First
Amendment Jurisprudence ........................... 10
A. Wisconsin Law Compels Attorneys To
Subsidize Core Political Speech
Materially Indistinguishable from a
Labor Union’s or a Lobbyist’s .................. 10
B. Compelled Membership in the State
Bar Impinges Core Associational Rights . 13
C. No State Interests Justify Compelled
Membership in the State Bar or
Compelled Subsidization of Its Speech ... 15

II.

Lathrop and Keller Should Be Overruled ..... 20

III. This Case Is an Excellent Vehicle for
Reconsidering Lathrop and Keller ................ 26
CONCLUSION ......................................................... 27

v
TABLE OF APPENDICES
Appendix A: Order, Adam Jarchow &
Michael D. Dean v. State Bar of
Wisconsin, et al.,
(7th Cir. Dec. 23, 2019) ......................... Pet.App.1
Appendix B: Order, Adam Jarchow &
Michael D. Dean v. State Bar of
Wisconsin, et al., (W.D. Wis. Dec. 13,
2019)....................................................... Pet.App.3
Appendix C: Opinion and Order, Adam
Jarchow & Michael D. Dean v. State Bar
of Wisconsin, et al., (W.D. Wis. Dec. 11,
2019)....................................................... Pet.App.5
Appendix D: Complaint, Adam Jarchow &
Michael D. Dean v. State Bar of
Wisconsin, et al., No. 19-cv-266 (W.D. Wis.
Apr. 8, 2019) .......................................... Pet.App.9
Appendix E: Wisconsin Supreme Court
Rules .................................................... Pet.App.48

vi
TABLE OF AUTHORITIES
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977) ....................................... passim
Cent. Hudson Gas & Elec. Corp. v. Pub. Serv.
Comm’n of New York,
447 U.S. 557 (1980) ............................................... 16
Elrod v. Burns,
427 U.S. 347 (1976) ............................................... 26
Fleck v. Wetch,
937 F.3d 1112 (8th Cir. 2019) ............................... 26
Harris v. Quinn,
573 U.S. 616 (2014) ................................. 2, 9, 10, 16
Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Grp. of Bos.,
515 U.S. 557 (1995) ............................................... 14
Int’l Assoc. of Machinists v. Street,
367 U.S. 740 (1961) ............................................... 22
Janus v. AFSCME,
138 S. Ct. 2448 (2018) ................................... passim
Keller v. State Bar of California,
496 U.S. 1 (1990) ........................................... passim
Knox v. SEIU,
567 U.S. 298 (2012) ............................... 9, 10, 12, 22
Lathrop v. Donohue,
367 U.S. 820 (1961) ....................................... passim

vii
Pacific Gas & Elec. Co. v. Pub. Util. Comm’n of
California,
475 U.S. 1 (1986) ................................................... 14
Ry. Emp. Dep’t v. Hanson,
351 U.S. 225 (1956) ............................................... 22
Riley v. Nat’l Fed’n of the Blind of North
Carolina, Inc.,
487 U.S. 781 (1988) ................................... 16, 17, 19
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ............................................... 14
Snyder v. Phelps,
562 U.S. 443 (2011) ............................................... 16
United States v. Stevens,
559 U.S. 460 (2010) ............................................... 17
United States v. United Foods,
533 U.S. 405 (2001) ............................................... 16
West Virginia Bd. of Ed. v. Barnette,
319 U.S. 624 (1943) ................................................. 1
STATUTES
28 U.S.C. § 1254 ......................................................... 3
Wis. Stat. § 757.30 ..................................................... 5
OTHER AUTHORITIES
In re Petition for a Rule Change to Create a
Voluntary State Bar of Nebraska,
841 N.W.2d 167 (Neb. 2013) ................................. 19

viii
State Bar of Wisconsin Policy Positions 2016,
State Bar of Wisconsin (2016),
https://www.wisbar.org/aboutus/governmentrel
ations/Documents/BOGPolicyPositions2017.pdf ... 6

PETITION FOR WRIT OF CERTIORARI
The Petitioners, as attorneys practicing law in Wisconsin, are required by State law to join the State Bar
of Wisconsin and subsidize its speech on matters of
substantial public concern ranging from the administration of justice and the substance of the law to divisive legislation. Those requirements are an even
plainer affront to the First Amendment than the compelled payments to public-employee labor unions condemned by Janus v. AFSCME, 138 S. Ct. 2448 (2018).
Whereas the collective-bargaining speech at issue in
Janus was primarily addressed to things like wages
and benefits that implicate the public fisc, the speech
Wisconsin attorneys are compelled to subsidize is directly and inherently political, addressing as it does
the substance and administration of the law. And
whereas the public employee in Janus was not required to join the union, Wisconsin law requires all
lawyers to formally associate with the State Bar as
full-fledged members. In these ways, Wisconsin’s socalled “integrated bar” contravenes the fundamental
First Amendment principle “that no official, high or
petty, can prescribe what shall be orthodox in politics,
nationalism, religion, or other matters of opinion or
force citizens to confess by word or act their faith
therein.” West Virginia Bd. of Ed. v. Barnette, 319
U.S. 624, 642 (1943).
Yet this compulsion has never been subject to First
Amendment scrutiny and never will be absent the
Court’s intervention. The lower courts are bound by
two aberrant decisions approving integrated-bar
schemes without any consideration of whether they

2
are appropriately tailored to achieve compelling State
interests. Lathrop v. Donohue, 367 U.S. 820 (1961),
upheld compulsory bar membership based on offhand dicta from labor-law precedent concerning the
private sector that the Court has since clarified has
no application to State-compelled association. And
Keller v. State Bar of California, 496 U.S. 1 (1990),
upheld compelled subsidization of State bar speech
based on another labor-law precedent, Abood v. Detroit Board of Education, 431 U.S. 209 (1977), that the
Court subsequently overruled because it approved
such compulsion “under a deferential standard that
finds no support in our free speech cases.” Janus, 138
S. Ct. at 2480. Although the Court’s modern freespeech jurisprudence—Janus, in particular—has
knocked the legs out from under Lathrop and Keller,
the lower courts remain bound to follow them unless
and until this Court overrules them.
The time has therefore come for this Court to reconsider those decisions and give “a First Amendment issue of this importance” the consideration it deserves.
Harris v. Quinn, 573 U.S. 616, 636 (2014). The deferential standard applied by Lathrop and Keller is unsupportable, but its persistence deprives the hundreds of thousands of attorneys who are compelled by
State law to join and subsidize the speech of integrated bars of their First Amendment rights. Permitting this state of affairs to continue long past the date
that the untenability of those precedents became
clear would be unconscionable. The same logic that

3
led the Court in Janus to revisit and overrule Abood
applies with equal force here.
OPINIONS BELOW
The Seventh Circuit’s opinion is unreported and is
reproduced at Pet.App.1. The district court’s opinion
is unreported and reproduced at Pet.App.5.
JURISDICTION
The Seventh Circuit entered judgment on December
23, 2019. Pet.App.2. This Court has jurisdiction under
28 U.S.C. § 1254(1).
STATUTES INVOLVED
The relevant regulatory provisions involved are reproduced at Pet.App.48.
STATEMENT OF THE CASE
A.

Wisconsin’s Integrated Bar

The State Bar of Wisconsin is a mandatory professional “association” organized under the Wisconsin
Supreme Court’s rules. Pet.App.48. Among its purposes are acting “to aid the courts in carrying on and
improving the administration of justice,” “to safeguard the proper professional interests of the members of the bar,” and to “make reports and recommendations” on “substantive law.” Pet.App.49 (Wis. S. Ct.
R. 10.02(2)). It has approximately 25,000 members.
Pet.App.16.

4
The State Bar is an “integrated” or “unified” bar,
meaning State law requires membership in the Bar
and payment of membership dues as a condition of
practicing law in the State. Specifically, the Wisconsin Supreme Court rules direct that “membership in
the association shall be a condition precedent to the
right to practice law in Wisconsin.” Pet.App.48. Wisconsin requires “[e]very person who becomes licensed
to practice law in [the] state” to “enroll in the state
bar by registering…with the [State Bar] within 10
days after admission to practice.” Pet.App.50. These
same rules forbid an “individual other than an enrolled active member of the state bar” to “practice law
in [the] state or in any manner purported to be authorized or qualified to practice law.” Pet.App.53.
Wisconsin law empowers the State Bar to compel
payment of dues from all members except certain
“emeritus” members over 70 years of age. Pet.App.16,
51, 57. The State Bar has exercised that prerogative
and compels the payment of what it calls “compulsory
dues.” Pet.App.16. The annual amounts vary based on
membership classification and run from $258 for full
dues-paying members to $173 for nonvoting judicial
members. Pet.App.16–17. These dues, in turn, fund
nearly half of the State Bar’s annual expenditures.
Pet.App.17–18.
If a member fails to pay annual dues or assessments
for over 120 days after the payment deadline, the
State Bar will automatically suspend the attorney’s
membership. Pet.App.17. This prohibits the member

5
from “practic[ing] law during the period of the suspension.” Pet.App.17. A suspended member’s name is
sent to the Wisconsin Supreme Court and to “each
judge of a court of record in [the] state.” Pet.App.17.
Ultimately, an attorney who practices law in Wisconsin without joining the Bar and paying dues risks
criminal penalties. Wis. Stat. § 757.30.
B.

The State Bar’s Speech and Advocacy

The State Bar is among the most active and powerful political-advocacy organizations in Wisconsin,
forcefully engaging in legislative and policy debates
within the State and entering political debates on
seemingly every hot-button issue under the sun. The
State Bar opposes the death penalty. Pet.App.32. It
supports criminal-justice “reform” and has advocated
for releasing “older inmates” from prison, Pet.App.35,
permitting convicted felons to vote, Pet.App.41, and
taking aggressive measures to curtail what it calls
“disparate and mass incarceration,” Pet.App.35.
The State Bar is particularly engaged on social issues. For example, it supports insurance coverage for
abortions in policies sold on a State-operated exchange, Pet.App.23, incorporating “sexual orientation” and “gender identity” into anti-discrimination
law, Pet.App.38, and taking affirmative action “to
promote diversity and inclusion among State Bar
leadership,” Pet.App.34, and “law firms,” Pet.App.31.
The State Bar has also taken public stances on tax
reform, Pet.App.30, sexual-harassment policies,
Pet.App.34, and public financing of campaigns,

6
Pet.App.32. And the State Bar has had much to say
about the current President and Administration, all
of it critical. Pet.App.36–37 (commentary that immigration executive order is “[i]mmoral, “obnoxious,”
and “unjust”); Pet.App.36 (criticizing nominee as “promanagement”); Pet.App.38 (criticizing President’s
statement as “ill-considered”).
The State Bar maintains a dedicated lobbying shop,
which it also supports with membership dues.
Pet.App.19–20. The Bar’s lobbyists have prepared a
30-page statement of the Bar’s “Policy Positions” that
is published on the Bar’s website. Pet.App.29.1 Its positions include support for continuation of the State’s
integrated bar, opposition to permitting non-attorney
professionals to provide what it considers to be legal
advice, support for public financing of judicial campaigns, and opposition to State immigration laws and
enforcement. Pet.App.29–31.
The Bar’s speech and political advocacy is funded by
membership dues. By default, members of the State
Bar are required to pay dues that subsidize the full
range of the Bar’s activities, including all of its advocacy. Members may, however, opt out of paying a portion of dues corresponding to the State Bar’s expenditures on activities that it has determined to be “non-

State Bar of Wisconsin Policy Positions 2016, State Bar of Wisconsin (2016), https://www.wisbar.org/aboutus/governmentrelations/Documents/BOGPolicyPositions2017.pdf.

1

7
chargeable,” which it defines as activities not germane to regulation of the legal profession or improving legal services. Pet.App.18.
But the State Bar’s chargeable speech (i.e., that
which all members must subsidize) also involves issues of substantial public concern. The speech that
the Bar has deemed chargeable includes, among
much else, its advocacy for legislation affecting the
regulation of the practice of law; advocacy for increased funding for prosecutors; and advocacy for “improved access to justice, consumer safeguards and judicial campaign reform.” Pet.App.39; see also Defendants’ Motion to Dismiss, Ex. B, Jarchow, et al., v.
State Bar of Wisconsin, et al., No. 19-cv-266, (W.D.
Wis. May 21, 2019), ECF No. 16-2 (table prepared by
Bar identifying chargeable items). The Bar also regards as chargeable the many articles and reports
that it publishes on substantive law and the administration of law. Pet.App.21.
C.

Proceedings Below

Petitioners are licensed Wisconsin attorneys who
have been and are currently required to pay annual
membership dues. Pet.App.39. Petitioners disagree
with the State Bar’s speech—including its speech on
criminal-justice issues, legal–services corporation
funding, felon voting rights, maintaining an integrated bar, the unauthorized practice of law, professional taxes, tax reform, immigration law, public campaign financing, the death penalty, unemployment insurance fraud, free exercise of religion, and immigration law—and oppose being compelled to financially

8
support it with their membership dues. Pet.App.40–
41. For the same reason, they also object to being compelled to join the State Bar as members. Id.
Accordingly, Petitioners brought suit against the
State Bar and its officers, in their official capacities,
seeking declaratory and injunctive relief from the
compelled-membership and compelled-dues requirements. Pet.App.9–47. The Defendants (Respondents
here), moved to dismiss, arguing that this Court’s Keller decision foreclosed Petitioners’ claims. In response, Petitioners acknowledged that Lathrop and
Keller were controlling, argued that those decisions
were wrongly decided, and asked the district court to
dismiss the action to facilitate a prompt appeal. The
district court granted the motion, holding that Keller
controlled and dismissing the case on that basis.
Pet.App.3–8.
Petitioners appealed to the Seventh Circuit and
moved for summary affirmance. They acknowledged
again that Lathrop and Keller were controlling and
presented their arguments for overruling those decisions. The appeals court granted the motion, agreeing
that it was bound by Keller and recognizing that Petitioners “have preserved their position for review by
the Supreme Court.” Pet.App.2.

9
REASONS FOR GRANTING THE PETITION
This petition presents an ideal and timely opportunity for the Court to revisit two aberrant precedents, Lathrop and Keller, that permit wholesale deprivation of attorneys’ First Amendment right to be
free from compelled association. An integrated bar
like Wisconsin’s is subject to heightened scrutiny because it entails “compelled funding of the speech of
other private speakers and groups,” Harris v. Quinn,
573 U.S. 616, 647 (2014) (citation omitted), but is not
tailored to achieve any compelling State interest. And
its membership requirement is no different from a requirement that citizens join one of the major political
parties, something that “[n]o one…would seriously argue that the First Amendment permits.” Janus, 138
S. Ct. at 2464. Lathrop and Keller approved these intrusions on First Amendment rights, but (like the
compelled-association precedents Janus overruled)
they came “about more as a historical accident than
through the careful application of First Amendment
principles.” Knox v. SEIU, 567 U.S. 298, 312 (2012).
The intellectual underpinning of both decisions having been dismantled by Janus, the Court should take
this opportunity to overrule them and clarify that ordinary First Amendment principles apply in this
area.

10
I.

Lathrop and Keller Cannot Be
Reconciled with Janus and the Rest of
This Court’s First Amendment
Jurisprudence

Contrary to Lathrop and Keller, the Court’s modern
First Amendment jurisprudence recognizes that impingements of First Amendment rights like compelled
membership in an integrated bar and subsidization of
its speech are subject to heightened scrutiny, which
neither of those impingements on First Amendment
rights can withstand.
A. Wisconsin Law Compels Attorneys To
Subsidize Core Political Speech
Materially Indistinguishable from a
Labor Union’s or a Lobbyist’s
The compelled-dues aspect of Wisconsin’s integrated-bar scheme is identical to that of the agencyfee scheme invalidated in Janus. Janus, like the
Court’s predecessor Harris and Knox decisions, applied the “bedrock principle that, except perhaps in
the rarest of circumstances, no person in this country
may be compelled to subsidize speech by a third party
that he or she does not wish to support.” Harris, 573
U.S. at 656; see also Knox, 567 U.S. at 310–11 (“[C]ompulsory fees constitute a form of compelled speech and
association that imposes a significant impingement
on First Amendment rights.” (quotation marks omitted)). And it held that, because labor-union speech in
collective bargaining addresses matters of the utmost
public concern, State laws compelling public workers
to subsidize that speech trigger heightened scrutiny.

11
138 S. Ct. 2463–66. Wisconsin’s compelled-dues requirement for attorneys is indistinguishable.
The State Bar engages in core protected speech on
matters of intense public concern. That is, in fact, its
central mission, as spelled out in law: “to aid the
courts in carrying on and improving the administration of justice” and to “make reports and recommendations” on “substantive law.” Pet.App.49 (Wis. S. Ct.
R. 10.02(2)). Those ends are accomplished through
speech, and the administration of justice and contents
of substantive law are indisputably matters of substantial public concern. It should go without saying
that Wisconsin attorneys do not all share the same vision for the law and the administration of justice and
so may disagree with the State Bar’s positions on any
number of important public policies, as the Petitioners do. Nonetheless, they are all compelled by State
law to subsidize its advocacy in support of those positions and other speech by the Bar with which they disagree.
There is no material distinction between the State
Bar’s speech and the speech that the Court held triggered heightened scrutiny in Janus. Janus recognized
that even the supposedly non-political subjects of collective bargaining—things like wages and employee
benefits—were still matters of public concern because
collective bargaining impacts the public fisc. 138 S.
Ct. at 2475. And there was no serious question about
the core status of union speech that “touches on fundamental questions of education policy,” as well as
union speech on such “controversial subjects such as

12
climate change, the Confederacy, sexual orientation
and gender identity, evolution, and minority religions.” Id. at 2476. All of this speech, the Court concluded, “occupies the highest rung of the hierarchy of
First Amendment values and merits special protection.” Id. (quotation marks omitted).
The same is true of the State Bar’s speech, which
addresses many of same controversial subjects as the
union’s in Janus. It speaks out on matters of public
funding and tax policy that affect the public fisc. But
even its arguably more mundane speech, regarding
the legal profession and the law, directly implicates
matters of substantial public concern. Just as a “public-sector union takes many positions during collective bargaining that have powerful political and civic
consequences,” Knox, 567 U.S. at 310, the regulation
of lawyers, the provision of legal services, and the administration of justice are matter of paramount public
concern.
And, just like in Janus, State law compels attorneys
to subsidize that speech, even if they disagree with it.
Indeed, the Court has long understood that there is a
close parallel “between the relationship of the State
Bar and its members, on the one hand, and the relationship of employee unions and their members, on
the other.” Keller, 496 U.S. at 12; Lathrop, 367 U.S. at
828 (recognizing that both situations raise the “question of compelled financial support of group activities”). And Keller borrowed the legal reasoning of a
since overruled labor-law precedent, Abood, to uphold

13
compelled subsidization of an integrated bar’s speech.
496 U.S. at 13.
Janus’s overruling of Abood left a striking anomaly
in the application of the First Amendment to Statecompelled subsidization of speech, subjecting it to
heightened scrutiny with respect to labor unions,
without disturbing Keller’s deferential approval of it
with respect to integrated bars. At the level of principle, however, the result must be the same in both context because both involve State-compelled subsidization of speech on matters of substantial public concern.
B. Compelled Membership in the State Bar
Impinges Core Associational Rights
Wisconsin’s integrated-bar arrangement imposes a
greater burden on First Amendment rights than the
agency-fee arrangement Janus condemned because it
requires lawyers to be formal members of the State
Bar, whereas the public-sector workers in Janus were
not compelled to join the union. Yet Lathrop, with
scant reasoning and no scrutiny, upheld compelled
membership in integrated bars. 367 U.S. at 843 (plurality opinion); see also id. at 849–50 (Harlan, J., concurring). And Keller, with no reasoning, reaffirmed
Lathrop. 496 U.S. at 17. Both decisions erred in failing to recognize the intrusion on First Amendment
rights posed by compelled membership in an expressive association and failing to subject it to heightened
scrutiny.

14
An integrated bar is an expressive association like
a church, fraternal organization, civic association, or
advocacy group because it exists for its members to
“mak[e] some sort of collective point, not just to each
other but to bystanders along the way.” Hurley v.
Irish-Am. Gay, Lesbian & Bisexual Grp. of Bos., 515
U.S. 557, 568 (1995). To that end, the State Bar
speaks out on a wide range of matters of substantial
public interest. Its mission is to represent the interest
of its members on matters of legal reform, access to
justice, and regulation of the legal profession.
Pet.App.18–19, 49. That Wisconsin law compels attorneys to associate with the State Bar as members is
therefore a plain-as-day impingement of their First
Amendment rights under this Court’s precedents,
triggering heightened scrutiny. See, e.g., United
States v. United Foods, 533 U.S. 405, 411–12 (2001);
Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984); Pacific Gas & Elec. Co. v. Pub. Util. Comm’n of California, 475 U.S. 1, 12 (1986).
Lathrop, however, regarded that injury as a nullity.
In the plurality’s view, because a bar member “is free
to attend or not attend [the bar’s] meetings or vote in
its elections,” the Court was “confronted…only with a
question of compelled financial support of group activities, not with involuntary membership in any
other aspect.” 367 U.S. at 828. It is difficult to imagine
a ruling more at odds with subsequent precedent,
which treats the “freedom not to associate” as a constitutional right independent of any financial obligation. Jaycees, 468 U.S. at 623.

15
Rather than re-assess Lathrop’s reasoning in light
of the Court’s more recent expressive-association
precedents, Keller repeated its error. Keller did not
distinguish between “membership” and “dues,” but
rather lumped them together without explanation.
See 496 U.S. at 5 (describing the arrangement ultimately upheld as one requiring “membership and
dues”).2
Yet, at the level of First Amendment principle,
there is no difference between compelled membership
in an advocacy organization and compelled membership an integrated bar, which is simply a species of
advocacy organization. Both impinge First Amendment rights, triggering heightened scrutiny.
C. No State Interests Justify Compelled
Membership in the State Bar or
Compelled Subsidization of Its Speech
Because Wisconsin’s integrated-bar scheme imposes a substantial burden on First Amendment
rights, it must be subject to heightened scrutiny.
Whether that level is “strict” or “exacting” scrutiny remains undecided because Janus expressly left the
question open. See Janus, 138 S. Ct. at 2465. It did so
because the agency-fee arrangement it addressed
would fail either test. So too does Wisconsin’s integrated-bar scheme.
In Keller, the question whether an integrated bar may use “its
name to advance political and ideological causes or beliefs” was
raised (and not decided), 496 U.S. at 17, but that is different from
the question of forced membership.
2

16
1. The Court’s precedent indicates that strict
scrutiny should apply. Like Illinois’s unconstitutional
agency-fee scheme, Wisconsin’s integrated bar involves “the compelled subsidization of private
speech,” which “seriously impinges on First Amendment rights.” Id. at 2464.
A statute compelling the subsidization of private
speech is not analogous to a commercial-speech regulation. See Harris, 573 U.S. at 648 (“[I]t is apparent
that the speech compelled in this case is not commercial speech.”). The State Bar’s speech does not serve
an “economic interest” or “assist[] consumers” in making choices as to “a commercial transaction,” and it
does not serve “the informational function of advertising.” Cent. Hudson Gas & Elec. Corp. v. Pub. Serv.
Comm’n of New York, 447 U.S. 557, 561–63 (1980).
Instead, the speech at issue here is that “concerning
public affairs,” which is even “more than self-expression; it is the essence of self government” that “occupies the highest rung of the hierarchy of First Amendment values.” Snyder v. Phelps, 562 U.S. 443, 452
(2011) (quotation marks omitted). The Court will
rarely encounter a stronger claim to strict scrutiny.
Accordingly, it should require proof of a “compelling
necessity” and a statutory arrangement that is “precisely tailored.” Riley v. Nat’l Fed’n of the Blind of
North Carolina., Inc., 487 U.S. 781, 800 (1988).
2. In any event, the integrated-bar arrangement
fails any applicable level of scrutiny. Under exacting
scrutiny, government compulsion “must ‘serve a compelling State interest that cannot be achieved through

17
means significantly less restrictive of associational
freedoms.’” Janus, 138 S. Ct. at 2465 (quoting Knox,
567 U.S. at 310). As noted, Wisconsin’s scheme compelling licensed attorneys to join and fund the State
Bar is materially indistinguishable from the statutory
scheme in Janus compelling public employees to fund
labor unions. The principal justification offered to
support agency-fee arrangements—the interest of “labor peace”—is obviously inapplicable here. And the
two justifications drawn from Keller that Respondents advanced—improving the quality of legal services and regulating the legal profession—fare no better.
a. Improving the Quality of Legal Services. The
First Amendment does not permit government to
“substitute its judgment as to how best to speak for
that of speakers and listeners” or to “sacrifice speech
for efficiency.” Riley, 487 U.S. at 791, 795. Yet that is
the upshot of this proffered interest. Merely identifying some interest that the government may lawfully
advance—promoting kindness and compassion
among its citizens, the provision of services to the
poor, economic growth, etc.—does not suffice to render it sufficiently compelling to justify impingement
of First Amendment rights. Instead, the general rule
is that “[t]he First Amendment’s guarantee of free
speech does not extend only to categories of speech
that survive an ad hoc balancing of relative social
costs and benefits.” United States v. Stevens, 559 U.S.
460, 470 (2010) (emphasis added). No exception

18
rooted in history having been recognized for speech on
the quality of legal services, the general rule applies.
At best, an asserted interest in improving the quality of legal services is merely another way of articulating the “free rider” argument Janus rejected—i.e.,
that labor unions’ bargaining efforts benefit an entire
unit and forced funding of that effort prevents unit
employees from benefiting from those efforts without
paying their fair share. That is, in fact, how Keller justified California’s integrated bar. 496 U.S. at 12 (recognizing that the “reason behind” agency-shop and integrated-bar laws is the same: to prevent “free riders”). And, as Keller also recognized, the argument is
even weaker here than in the agency-shop context, because “[t]he members of the State Bar concededly do
not benefit as directly from its activities as to employees from union negotiations with management.” Id.
In any instance, Janus held that avoiding would-be
“free riders” “is not a compelling interest” that can
“overcome First Amendment objections.” 138 S. Ct. at
2466 (quotation marks omitted). And even if that interest were considered compelling in some respect,
forcing attorneys to join the bar and subsidize its
speech is not tailored to achieve it, because that same
end could be achieved through means significantly
less restrictive of associational freedoms—such as
through funding the speech at issue from general tax
revenues.
b. Regulating the Legal Profession. The second
proffered interest, regulating the legal profession, is
not compelling for the same reason: the government’s

19
convenience in carrying out its functions is no basis to
impinge core First Amendment rights. See Riley, 487
U.S. at 791, 795.
In any instance, the government’s regulatory interest (as well as its interest in improving the quality of
legal services) does not justify the integrated-bar regime because Wisconsin does not need an integrated
bar to regulate lawyers. At least 18 States do not have
integrated bars and therefore do not wed the regulation of the legal profession and expressive activities of
a bar association. In re Petition for a Rule Change to
Create a Voluntary State Bar of Nebraska, 841
N.W.2d 167, 171 (Neb. 2013) (identifying States without integrated bars).
Possessing the police power, as well as the powers
to tax and spend, Wisconsin has ample authority and
ability to achieve any legitimate regulatory purpose
through a licensing scheme or similar means, without
intruding at all on First Amendment rights. Indeed,
ultimate responsibility for regulating lawyers is
vested not in the State Bar, but in the Wisconsin Supreme Court and its Office of Lawyer Regulation.
Pet.App.72–73. That, in addition to this regulatory
scheme, Wisconsin also compels lawyers to join the
State Bar and subsidize its speech is a gratuitous and
unjustifiable intrusion on their First Amendment
rights.

20
II.

Lathrop and Keller Should Be Overruled

Because Lathrop and Keller are incompatible with
this Court’s First Amendment jurisprudence, the
Court’s obligation is to determine “whether stare decisis nonetheless counsels against overruling” them.
Janus, 138 S. Ct. at 2478. “Stare decisis is not an inexorable command,” and it is “at its weakest when
[this Court] interpret[s] the Constitution.” Id. For the
same reasons the Court found stare decisis insufficient to adhere to Abood, the Court’s prudential deference to its precedent cannot save these erroneous
decisions.
A. By overruling Abood, the Court impliedly signaled that Lathrop and Keller should also be revisited
and overruled. The First Amendment right to be free
from compelled subsidization of speech is the same
right in all these cases, and it merits equal protection
here. Because “stare decisis applies with perhaps
least force of all to decisions that wrongly denied First
Amendment rights,” id., there is no better claim to
preserve Lathrop and Keller than there was to preserve Abood.
What’s more, the Court’s reasons for overruling
Abood apply with equal force to Lathrop and Keller.
Keller extended Abood’s reasoning and doctrinal
framework from the agency-fee context to the integrated-bar context on the basis that they bear “a substantial analogy” to each other. 496 U.S. at 12. In so
doing so, it extended the many errors Janus identified
in Abood’s reasoning—including that Abood improperly relied on rational-basis case law interpreting the

21
Railway Labor Act, see Keller, 496 U.S. at 14, that it
found a “free rider” interest to be a compelling justification for impinging First Amendment rights, id. at
11–12, and that it saw a tenable distinction between
“ideological activities not ‘germane’ to the purpose for
which compelled association was justified” and those
“germane to those goals,” id. at 13–14. See Janus, 138
S. Ct. at 2481–86 (describing these flaws in Abood’s
reasoning as a basis to overrule it). Having identified
those flaws as sufficient to overcome stare decisis in
the case of Abood, the Court can hardly allow Lathrop
and Keller to linger as open and obvious constitutional
“anomal[ies].” Id. at 2463 (citation omitted).
B. As in Janus, all of the stare decisis factors
weigh in favor of overruling these precedents.
1. The reasoning of Keller and Lathrop is even
weaker than that of Abood. Keller took Abood as a
given, recited its core (flawed) logic, and extended its
holding into the integrated-bar setting. Keller therefore carried Abood’s errors forward, and this factor favors overruling it. See Janus, 138 S. Ct. at 2479.
Importantly, the Court in Keller was in no position
to revisit Abood because Abood’s vitality as constitutional law was unchallenged. See 496 U.S. at 16–17.
Quite the opposite, Keller addressed the far more aggressive proposition, which the California Supreme
Court had adopted, that the First Amendment imposes no restriction on a State’s ability to compel lawyers to fund bar-association speech, even ideological
advocacy and lobbying. The Keller Court therefore ap-

22
proached the problem from the other direction, considering whether to apply Abood’s minimally restrictive First Amendment regime or no First Amendment
principles at all. It did not consider the third possibility that Janus identified as the right answer: that no
distinction between “ideological” and “non-ideological” speech is tenable and that compelled dues payments are subject to heightened scrutiny.
The erroneous development of legal doctrine in this
area is therefore strikingly similar to that identified
and rectified in Knox, Harris, and Janus. In Knox, the
Court criticized Abood for articulating principles that
were more the product of “historical accident” than
sound legal reasoning. 567 U.S. at 312. Keller is
simply another artifact of that historical accident.
Keller also extended the superficial and antiquated
reasoning of Lathrop, which upheld compelled dues
payments to and membership in Wisconsin’s integrated bar. But, like Abood, that case predated much
of the Court’s modern First Amendment jurisprudence, and it contained very little analysis. Instead,
the plurality opinion cited an offhand statement in a
labor case involving private-sector unions, Railway
Employees Department v. Hanson, 351 U.S. 225, 238
(1956), that compelled financial support for unions is
no more unconstitutional than a State law forcing a
lawyer “to be a member of an integrated bar.” Lathrop, 367 U.S. at 843 (quoting Hanson, 351 U.S. at
238). The concurring opinion likewise relied on Hanson and International Ass’n of Machinists v. Street,
367 U.S. 740 (1961), another case involving private-

23
sector unions. Lathrop, 367 U.S. at 849–53 (Harlan,
J., concurring). Just like Abood, Lathrop “went wrong
at the start when it concluded that [those] two prior
decisions” on private-sector arrangements licensed
State-compelled association. Janus, 138 S. Ct. at
2479. And, just like Abood, Lathrop thereby proceeded to “judge[] the constitutionality of public-sector [compelled subsidization of speech] under a deferential standard that finds no support in [this Court’s]
free speech cases.” Id. at 2479–80.
Thus, Lathrop and Keller suffer from the very same
errors that led the Court to declare Abood “poorly reasoned” and unworthy of continued respect. Id. at
2479.
2. Keller’s regulation of bar dues has proven no
more workable than the identical regulation of agency
fees under Abood. See Janus, 138 S. Ct. at 2481. As in
that context, here the “line between chargeable and
nonchargeable…expenditures has proved to be impossible to draw with precision.” Id. As the State Bar conceded below, it treats some (but not all) lobbying as
chargeable and some (but not all) advocacy as chargeable. Pet.App.18 see also Defendants’ Motion to Dismiss, Ex. B, Jarchow, et al., v. State Bar of Wisconsin,
et al., No. 19-cv-266, (W.D. Wis. May 21, 2019), ECF
No. 16-2. The difference is in the eye of the beholder,
and that weighs heavily against stare decisis. See Janus, 138 S. Ct. at 2481–82.
Although some bar members may respond to this
inherent uncertainty through the “give it a try” ap-

24
proach, and litigate each and every questionable expenditure, id. at 2481, the more typical response of
simply paying up is even more concerning. See id. at
2482. Objecting attorneys “face a daunting and expensive task if they wish to challenge…chargeability determinations,” id., and they face obstacles even to asserting any basis of objection, since objectors bear the
burden of taking the annual steps to avoid payment
of chargeable expenses. That the system is so easily
rigged to discourage members from protecting their
constitutional rights is yet another way in which Keller has proven unworkable. See id. at 2486.
3. As in Janus, developments in the Court’s First
Amendment jurisprudence have “eroded” the “underpinnings” of both Lathrop and Keller and left them
“outlier[s] among [the Court’s] First Amendment
cases.” 138 S. Ct. at 2482. Indeed, a case could hardly
be a greater outlier than Keller, whose principal authority has since been overruled, or Lathrop, whose
principal authorities have been declared completely
inapplicable to State-compelled association.
That Keller and Lathrop are anomalies in the law is
even more clear because neither can be defended as
commercial-speech or government-as-employer cases,
as Abood was. See Janus, 138 S. Ct. at 2464–65,
2471–72. At this point, there is no First Amendment
case in any context that resembles Lathrop or Keller
or supports them.
4. No “reliance” interest here justifies sticking
with Lathrop and Keller, and any contention to the

25
contrary runs squarely into Janus. The reliance interest asserted in Janus was far weightier than any interest to be asserted here because the Abood framework governed an incalculable number of bargaining
relationships and agreements at every level of government nationwide. Here, because there are no more
than 32 integrated State bars, any disruption would
be of a far lesser magnitude. Moreover, States are in
a stronger position to respond to a change in law because they, unlike unions, possess taxing and spending authority, and many States, like Wisconsin, have
already delegated ultimate regulatory power in a supreme court or regulatory agency with no expressive
purpose. And, besides, a response would not be particularly onerous: all a State need do is curtail the expressive role of an integrated bar, such that all that
remains is a licensing body, or take over that function
itself. These are all reasons in addition to those in Janus why this factor does not favor upholding Keller
and Lathrop.
C. The importance of the question presented here
and the Court’s intervention and cannot be understated. Hundreds of thousands of attorneys are compelled by State law to join integrated bars and fund
their advocacy, irrespective of their disagreement
with it. At present, thanks to Lathrop and Keller, they
lack any way to vindicate their First Amendment
rights and disassociate themselves from advocacy and
other speech with which they disagree even when it
offends their most deeply held beliefs. “The loss of
First Amendment freedoms, for even minimal periods

26
of time, unquestionably constitutes irreparable injury,” Elrod v. Burns, 427 U.S. 347, 373 (1976) (plurality opinion), and the injury here is massive in size
and scope. Because “it would be unconscionable to
permit free speech rights to be abridged in perpetuity,” Janus, 138 S. Ct. at 2484, the Court’s reconsideration and overruling of these aberrant precedents is
necessary.
III. This Case Is an Excellent Vehicle for
Reconsidering Lathrop and Keller
This case presents an ideal vehicle for the Court to
revisit an issue of overriding importance.
The Court will not find a better opportunity to reconsider Lathrop and Keller. This case directly challenges State-compelled membership in an integrated
bar and subsidization of its speech, Pet.App.10–45
(stating those claims) and the court below expressly
recognized that Petitioners “have preserved their position for review by the Supreme Court.” Pet.App.2.
The district court also recognized that Petitioners
have properly set themselves up to “seek relief in a
higher court.” Pet.App.8.3 Moreover, this case presents a clean vehicle to revisit the constitutional issues, and only those issues, as Petitioners have not
coupled their constitutional cause of action with other
Unfortunately, a similar petition arising from the Eighth Circuit, No. 19-670, suffers from a waiver defect. See Fleck v. Wetch,
937 F.3d 1112, 1116–18 (8th Cir. 2019) (holding that plaintiff
waived challenge to “the constitutionality of mandatory bar association membership” and compelled payment of dues).

3

27
challenges (e.g., a challenge to some charges as improperly designated “chargeable”).
This case is optimally postured in the only way it
could be postured, as an appeal from a granted motion
to dismiss. No other case raising the same challenges
could advance beyond that stage, because Keller and
Lathrop foreclose those challenges in the lower courts.
Accordingly, if the Court denies this petition, there
would be little incentive for future litigants to bring
suit in hope of achieving a different result.
CONCLUSION
The Court should grant the petition.

Respectfully submitted,
RICHARD M. ESENBERG
WISCONSIN INSTITUTE
FOR LAW & LIBERTY
330 East Kilbourn Ave.
Milwaukee, WI 53202

DAVID B. RIVKIN, JR.
Counsel of Record
ANDREW M. GROSSMAN
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731
drivkin@bakerlaw.com

Counsel for Petitioner
DECEMBER 2019

APPENDIX

App. i
TABLE OF APPENDICES
Appendix A: Order, Adam Jarchow & Michael
D. Dean v. State Bar of Wisconsin, et al., (7th
Cir. Dec. 23, 2019) ....................................... App. 1
Appendix B: Order, Adam Jarchow & Michael
D. Dean v. State Bar of Wisconsin, et al., (W.D.
Wis. Dec. 13, 2019) ...................................... App. 3
Appendix C: Opinion and Order, Adam Jarchow
& Michael D. Dean v. State Bar of Wisconsin, et
al., (W.D. Wis. Dec. 11, 2019)...................... App. 5
Appendix D: Complaint, Adam Jarchow &
Michael D. Dean v. State Bar of Wisconsin, et al.,
No. 19-cv-266 (W.D. Wis. Apr. 8, 2019) ...... App. 9
Appendix E: Wisconsin Supreme Court
Rules .......................................................... App. 48

App. 1
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
___________________
No. 19-3444
___________________
ADAM JARCHOW AND MICHAEL D. DEAN,
Plaintiffs - Appellants,
v.
STATE BAR OF WISCONSIN, et al.,
Defendants, Appellees.
_________________________________________________
Appeal from the U.S. District Court for the Western
District of Wisconsin (Hon. Barbara B. Crabb, U.S.
District Judge)
_________________________________________________
ORDER
December 23, 2019
Before FLAUM, EASTERBROOK, and SCUDDER,
Circuit Judges.
The following is before the court: MOTION FOR
SUMMARY AFFIRMANCE, filed on December 16,
2019, by counsel for the appellants.

App. 2
This court has carefully reviewed the final order of
the district court, the record on appeal, and appellants' motion for summary affirmance. Based on this
review, the court has determined that further briefing
would not be helpful to the court's consideration of the
issues. See Taylor v. City of New Albany, 979 F.2d 87
(7th Cir. 1992); Mather v. Village of Mundelein, 869
F.2d 356, 357 (7th Cir. 1989) (per curiam) (court can
decide case on motions papers and record where briefing would not assist the court and no member of the
panel desires briefing or argument). "Summary disposition is appropriate 'when the position of one party is
so clearly correct as a matter of law that no substantial question regarding the outcome of the appeal exists.'" Williams v. Chrans, 42 F.3d 1137, 1139 (7th Cir.
1995), citing Joshua v. United States, 17 F.3d 378, 380
(Fed. Cir. 1994). The district court, in its thorough
and well-reasoned order, correctly held that the appellants' claims are foreclosed by Keller v. State Bar
of California, 496 U.S. 1 (1990). Appellants have preserved their position for review by the Supreme
Court.
Accordingly, IT IS ORDERED that the appellants'
motion is GRANTED, and the judgment of the district
court is summarily AFFIRMED.

App. 3
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
ADAM JARCHOW AND
MICHAEL D. DEAN,
Plaintiff
v.
STATE BAR OF WISCONSIN, STATE BAR
OF WISCONSIN BOARD
OF GOVERNORS,
CHRISTOPHER E. ROGERS, JILL M. KASTNER,
STARLYN R. TOURTILLOTT,
KATHLEEN A. BROST,
ERIC L. ANDREWS AND
KORI L. ASHLEY

19-cv-266-bbc

Defendants.
JUDGEMENT IN A CIVL CASE
IT IS ORDERED AND ADJUDGED that judgment is entered in favor of defendants State Bar of
Wisconsin, State Bar of Wisconsin Board of Governors, Christopher E. Rogers, Jill M. Kastner, Starlyn
R. Tourtillott, Kathleen A. Brost, Eric L. Andrews and

App. 4
Kori L. Ashley against plaintiffs Adam Jarchow and
Michael D. Dean dismissing this case.
s/ A. Wiseman, Deputy Clerk__
Peter Oppeneer, Clerk of Court
12/13/2019
Date

App. 5
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
ADAM JARCHOW AND
MICHAEL D. DEAN,
Plaintiff
v.

OPINION AND ORDER

STATE BAR OF WISCONSIN, STATE BAR
OF WISCONSIN BOARD
OF GOVERNORS,
CHRISTOPHER E. ROGERS, JILL M. KASTNER,
STARLYN R. TOURTILLOTT,
KATHLEEN A. BROST,
ERIC L. ANDREWS AND
KORI L. ASHLEY

19-cv-266-bbc

Defendants.
Lawyers who are licensed to practice law in Wisconsin must join the State Bar of Wisconsin and pay
mandatory annual dues. Wis. S. Ct. R. (SCR) 10.01(1);
10.03. The State Bar uses compulsory member dues
to fund various activities. Plaintiffs Adam Jarchow
and Michael D. Dean are lawyers licensed in Wisconsin who disagree with the State Bar’s activities and

App. 6
oppose being compelled to support it financially with
their membership dues. They contend that being compelled to join the State Bar and pay dues violates their
rights under the First Amendment to the United
States Constitution. In support of their claims, plaintiffs rely primarily on Janus v. American Federation
of State, County and Municipal Employees, Council
31, 138 S. Ct. 2448, 2486 (2018), in which the Supreme Court held that public sector unions may not
deduct agency fees from nonconsenting employees.
Defendants have moved to dismiss plaintiffs’ complaint on various grounds, including that all of plaintiffs’ claims are barred by Keller v. State Bar of California, 496 U.S. 1 (1990). Dkt. #15. In Keller, the
Court held that an integrated bar, such as the State
Bar of Wisconsin, may, consistent with the First
Amendment, use a member’s compulsory fees to fund
activities germane to “regulating the legal profession
and improving the quality of legal services,” but not
to fund “activities of an ideological nature” that are
not reasonably related to the advancement of such
goals. Id. at 13-15. The Supreme Court reached its
conclusion in Keller after applying its decision in
Abood v. Detroit Board of Education, 431 U.S. 209,
235-36 (1977), in which it held that public-sector unions could collect compulsory “agency fees” from nonmembers within the bargaining unit to fund activities
germane to collective bargaining, but could not use
those fees to fund non-germane political or ideological
activities that a nonmember employee opposed.

App. 7
The parties in this case agree that under Keller,
the State Bar of Wisconsin can compel lawyers to join
the State Bar and pay mandatory dues without running afoul of the First Amendment. Plts.’ Br., dkt.
#25, at 3, 10; Dfts.’ Br., dkt. #16, at 8. However, plaintiffs contend that the Supreme Court’s 2018 decision
in Janus undermined the reasoning and holding of
Keller. In Janus, the Supreme Court overruled Abood,
and held that public-sector unions may not deduct
agency fees or “any other payment to the union” from
the wages of nonmember employees unless the employees waive their First Amendment rights by
“clearly and affirmatively consent[ing] before any
money is taken from them.” Id. at 138 S. Ct. at 2486.
The majority in Janus did not discuss Keller nor respond to the dissent’s citation to Keller. Id. at 138 S.
Ct. at 2498 (Kagan, J., dissenting).
It may be, as plaintiffs contend, that the Court’s
decision in Janus has eroded the foundation of Keller.
However, both sides agree that Keller still binds this
court, and that only the Supreme Court can say otherwise. Plts.’ Br., dkt. #25, at 3, 10; Dfts.’ Br., dkt. #16,
at 8. The Supreme Court has made it clear that “if a
precedent of this Court has direct application in a case
[here, Keller], yet appears to rest on reasons rejected
in some other line of decisions, [lower courts] should
follow the case which directly controls, leaving to this
Court the prerogative of overruling its own decisions.”
Agostini v. Felton, 521 U.S. 203, 237(1997). See also
Price v. City of Chicago, 915 F.3d 1107, 1119 (7th Cir.
2019) (applying Agostini). Because this court is bound

App. 8
by Keller, and because the parties agree that plaintiffs’ challenges fail under Keller, plaintiffs’ claims fail
in this court. Therefore, I will grant defendants’ motion to dismiss plaintiffs’ claims. Plaintiffs must seek
relief in a higher court.
Because I am dismissing plaintiffs’ claims as
barred by Keller, I do not need to resolve the other arguments for dismissal raised by defendants.
ORDER
IT IS ORDERED that the motion to dismiss filed
by defendants State Bar of Wisconsin, State Bar of
Wisconsin Board of Governors, Christopher E. Rogers, Jill M. Kastner, Starlyn R. Tourtillott, Kathleen
A. Brost, Eric L. Andrews and Kori L. Ashley, dkt #15,
is GRANTED. The clerk of court is directed to enter
judgment and close this case.
Entered this 11th day of December, 2019.
BY THE COURT:
/s/
________________________
BARBARA B. CRABB
District Judge

App. 9
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
ADAM JARCHOW AND
MICHAEL D. DEAN,
Plaintiff
v.
STATE BAR OF WISCONSIN, STATE BAR
OF WISCONSIN BOARD
OF GOVERNORS,
CHRISTOPHER E. ROGERS, JILL M. KASTNER,
STARLYN R. TOURTILLOTT,
KATHLEEN A. BROST,
ERIC L. ANDREWS AND
KORI L. ASHLEY

Civil Case No.:
19-cv-266

CIVIL RIGHTS COMPLAINT FOR DECLARATORY AND
INJUNCTIVE RELIEF AND DAMAGES

Defendants.
COMPLAINT
Plaintiffs Adam Jarchow and Michael D. Dean
(“Plaintiffs”), for their Complaint against the Defendants, the State Bar of Wisconsin; the State Bar of Wisconsin Board of Governors; Christopher E. Rogers,
President of the State Bar of Wisconsin; Jill M. Kastner, President-elect of the State Bar of Wisconsin;

App. 10
Starlyn R. Tourtillott, Secretary of the State Bar of
Wisconsin; John E. Danner, Treasurer of the State
Bar of Wisconsin; Odalo J. Ohiku, Chairperson of the
State Bar of Wisconsin Board of Governors, and Paul
G. Swanson, Immediate Past-president of the State
Bar of Wisconsin, in their official capacities (collectively, “Defendants” or “State Bar”), allege and state
as follows.
Nature of the Action
1. This civil-rights action challenges Wisconsin’s unconstitutional requirements that attorneys licensed to practice law in Wisconsin must join and pay
membership dues to the State Bar of Wisconsin. The
State Bar of Wisconsin regularly engages in advocacy
and other speech on matters of intense public interest
and concern, and it funds that advocacy through mandatory dues payments. Accordingly, those requirements compel Plaintiffs’ speech and compel them into
an unwanted expressive association with the State
Bar, in violation of Plaintiffs’ rights under the First
and Fourteenth Amendments to the United States
Constitution. Plaintiffs therefore ask that this Court
declare unconstitutional Wisconsin’s requirements
that attorneys join and fund the State Bar of Wisconsin, order Defendants to desist in enforcement of
those requirements, and refund to Plaintiffs the dues
that they have been unconstitutionally compelled to
pay to the State Bar of Wisconsin.

App. 11
Parties
2. Plaintiff Adam Jarchow is a resident of Polk
County, Wisconsin, a licensed attorney under the
laws of Wisconsin, and a member of the State Bar of
Wisconsin pursuant to Wisconsin’s Supreme Court
rules requiring that he be a member of the bar in order to practice law. Wis. Sup. Ct. R. (“SCR”) 10.01(1)
(“There shall be an association to be known as the
‘state bar of Wisconsin’ composed of persons licensed
to practice law in this state, and membership in the
association shall be a condition precedent to the right
to practice law in Wisconsin.”). He has paid dues to
the State Bar of Wisconsin since 2009.
3. Plaintiff Michael D. Dean is a resident of
Waukesha County, Wisconsin, a licensed attorney under the laws of Wisconsin, and a member of the State
Bar of Wisconsin pursuant to Wisconsin’s Supreme
Court rules requiring that he be a member of the bar
in order to practice law. Wis. Sup. Ct. R. (“SCR”)
10.01(1) (“There shall be an association to be known
as the ‘state bar of Wisconsin’ composed of persons licensed to practice law in this state, and membership
in the association shall be a condition precedent to the
right to practice law in Wisconsin.”). He has paid dues
to the State Bar of Wisconsin for over a decade.
4. Defendant State Bar of Wisconsin (“State
Bar”) is a mandatory professional “association” as
specified by Wisconsin Supreme Court’s rules. SCR
10.01(1); see also Overview, State Bar of Wisconsin
(“The State Bar of Wisconsin is a mandatory professional association, created by the Wisconsin Supreme

App. 12
Court . . . .”).1 The State Bar enforces the “rights, obligations and conditions of membership therein,” SCR
10.01(2), and may be sued for “carrying out the purposes for which it is organized.” SCR 10.02(1). The
State Bar is enforcing the unconstitutional laws,
rules, customs, practices and policies complained of in
this action. Its main office is located at 5302 Eastpark
Blvd. Madison, WI 53718-2101.
5. Defendant State Bar of Wisconsin Board of
Governors (“Board”) “manage[s] and direct[s]” the “affairs of the [State Bar] association.” SCR 10.05(1). In
that capacity, the Board is enforcing the unconstitutional laws, rules, customs, practices and policies
complained of in this action.
6. Defendant Christopher E. Rogers is the President of the State Bar of Wisconsin; as such, he is an
officer of the State Bar of Wisconsin, SCR 10.04(1),
specifically its “chief executive officer,” Id. 10.04(2)(a),
and a member-at-large of the State Bar of Wisconsin
Board of Governors, Id. In those capacities, the Defendant is enforcing the unconstitutional laws, rules,
customs, practices and policies complained of in this
action. Mr. Rogers is sued in his official capacity.
7. Defendant Jill M. Kastner is the PresidentElect of the State Bar of Wisconsin; as such, she is an
officer of the State Bar of Wisconsin, SCR 10.04(1),
and a member-at-large of the State Bar of Wisconsin

https://www.wisbar.org/aboutUs/Overview/Pages/overview.aspx (last visited Mar. 7, 2019).

1

App. 13
Board of Governors and serves on the executive committee. Id. 10.04(2)(b). In those capacities, the Defendant is enforcing the unconstitutional laws, rules,
customs, practices and policies complained of in this
action. Ms. Kastner is sued in her official capacity.
8. Defendant Starlyn R. Tourtillott is the Secretary of the State Bar of Wisconsin; as such, she is an
officer of the State Bar of Wisconsin, SCR 10.04(1),
and a member-at-large of the State Bar of Wisconsin
Board of Governors. Id. 10.04(2)(d). In those capacities, the Defendant is enforcing the unconstitutional
laws, rules customs, practices and policies complained
of in this action. Ms. Tourtillott is sued in her official
capacity.
9. Defendant John E. Danner is the Treasurer
of the State Bar of Wisconsin; as such, he is an officer
of the State Bar of Wisconsin, SCR 10.04(1), and a
member-at-large of the State Bar of Wisconsin Board
of Governors. Id. 10.04(2)(e). In those capacities, the
Defendant is enforcing the unconstitutional laws,
rules, customs, practices and policies complained of in
this action. Mr. Danner is sued in his official capacity.
10. Defendant Odalo J. Ohiku is the Chairperson
of the State Bar of Wisconsin Board of Governors; as
such, he is an officer of the State Bar of Wisconsin,
SCR 10.04(1), and a member-at-large of the State Bar
of Wisconsin Board of Governors. Id. 10.04(2)(c). In
those capacities, the Defendant is enforcing the un-

App. 14
constitutional laws, rules, customs, practices and policies complained of in this action. Mr. Ohiku is sued
in his official capacity.
11. Defendant Paul G. Swanson is the Immediate
Past-President of the State Bar of Wisconsin; as such,
he is an officer of the State Bar of Wisconsin, SCR
10.04(1), and a member-at-large of the State Bar of
Wisconsin Board of Governors. Id. 10.04(2)(b). In
those capacities, the Defendant is enforcing the unconstitutional laws, rules, customs, practices and policies complained of in this action. Mr. Swanson is sued
in his official capacity.
Jurisdiction and Venue
12. This case raises claims under the First and
Fourteenth Amendments of the federal Constitution,
42 U.S.C. §§ 1983 and 1988, and the Declaratory
Judgment Act, 22 U.S.C. § 2201, et seq. Jurisdiction is
proper under 28 U.S.C. §§ 1331 and 1343.
13. Venue is proper in this District and Division
because all Defendants are residents of Wisconsin
and at least one Defendant resides in this judicial district and a substantial part of the events or omissions
giving rise to the claim occurred and are occurring in
the District and Division. See 28 U.S.C. § 1391(b).

App. 15
Factual Allegations
A. Wisconsin Supreme Court Rules Require Licensed Attorneys To Be Members of the
State Bar and To Pay Dues to the State Bar
14. As a condition to practice law in Wisconsin,
attorneys licensed in Wisconsin are required to join
the mandatory state bar association—the Defendant
State Bar of Wisconsin. Specifically, the Wisconsin
Supreme Court rules direct: “There shall be an association to be known as the ‘state bar of Wisconsin’
composed of persons licensed to practice law in this
state, and membership in the association shall be a
condition precedent to the right to practice law in Wisconsin.” SCR 10.01(1).2
15. The Wisconsin Supreme Court rules demand
“[e]very person who becomes licensed to practice law
in [the] state” to “enroll in the state bar by registering
. . . with the [State Bar of Wisconsin] within 10 days
after admission to practice.” SCR 10.03(2).
16. The Wisconsin Supreme Court rules forbid an
“individual other than an enrolled active member of
the state bar” to “practice law in [the] state or in any
manner purported to be authorized or qualified to
practice law,” Id. 10.03(4), with limited exceptions for
“nonresident counsel to appear and participate in a
particular action or proceeding in association with an
Wisconsin Supreme Court “rules” governing the regulation of
the state bar constitute statutes for analysis purposes. See Lathrop v. Donohue, 367 U.S. 820, 824-26 (1961) (treating now SCR
10.01 as a statute for purposes of 28 U.S.C. § 1257 analysis).

2

App. 16
active member of the state bar of Wisconsin who appears and participates in the action or proceeding.”
SCR 10.03(4)(b).
17. The membership of the State Bar of Wisconsin is divided into four classes: “active members, judicial members, inactive members and emeritus members.” SCR 10.03(a).
18. The State Bar’s website asserts it is a “professional association that provides educational, career
development and other services to its 25,000 members.”3
19. Defendants are authorized to compel payment of dues from all classes of Wisconsin State Bar
members, SCR 10.03(5)(a) (“The annual membership
dues for state bar operations for an active member
shall be established as provided herein.”); id. (establishing “fractions of the dues of an active member” for
“[o]ther classes of members.”), except for emeritus
members (members who are active or inactive members in good standing but at least 70 years of age and
have requested emeritus status), SCR 10.03(3)(a).
20. Defendants do compel the payment of such
membership dues—termed “compulsory dues” by the
Defendants themselves. Notice Concerning State Bar
Dues Reduction and Arbitration Process, State Bar of
Wisconsin § 1 (2016).4The annual membership dues
vary based on membership classification: $258 for full
https://www.wisbar.org/aboutUs/Pages/aboutus.aspx.
https://www.wisbar.org/aboutus/membership/documents/keller-dues.pdf.
3
4

App. 17
dues-paying members; $129 for active new members
and inactive members; $173 for nonvoting judicial
members; and no cost to emeritus members. No
Change in Annual Court Assessments and State Bar
Dues for Coming Year: Pay by July 1, State Bar of
Wisconsin, State Bar of Wisconsin (May 2, 2018).5
21. If a member fails to pay annual dues or assessments for over 120 days after the payment is due,
the Defendants may suspend the member’s membership—with the Defendants’ by-laws decreeing failure
to pay after 120 days “shall automatically suspend the
delinquent member,” SCR ch. 10 app., art. I, § 3(a); id.
§ 3(b)—which bars the member from the “practice [of]
law during the period of the suspension.” SCR
10.03(6).
22. A suspended member’s name is sent to the
State’s Supreme Court and to “each judge of a court of
record in [the] state,” SCR ch. 10 app., art. I, § 3(a);
id. § 3(b), ensuring the member will not be able to
practice law in the state.
23. The State Bar’s “2019 budget of $11.5 million
will be funded with $5.2 million in membership dues.”
(Updated) State Bar Board Adopts Budget, Hears Efiling and Private Bar SPD Rate Updates. State Bar
of Wisconsin (Apr. 23, 2018).6 “About 45 percent of the
proposed 2020 budget relies on membership dues.”
https://www.wisbar.org/NewsPublications/InsideTrack/Pages/Article.aspx?Volume=10&Issue=8&ArticleID=26331.
6 https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=26314.
5

App. 18
Board Discusses Potential OLR Rule Changes, Proposed State Bar Budget, State Bar of Wisconsin (Feb.
18, 2019).7
24. The State Bar provides members an optional
dues reduction that accounts for certain “nonchargeable” activities, but the reduction does not reduce
dues altogether. SCR 10.03(5)(b)(2). It is incumbent
on the State Bar to "publish written notice of the activities that can be supported by compulsory dues and
the activities that cannot be supported by compulsory
dues.” Id. The nonchargeable activities include a combination of political and ideological activities and activities not germane to regulation of the legal profession or improving legal services. The State Bar informs members it “may use compulsory dues of all
members for all other activities, provided the activities are within the purposes of the State Bar as set
forth in SCR 10.02(2).” Notice Concerning State Bar
Dues Reduction and Arbitration Process, State Bar of
Wisconsin § 1 (2016).8 These activities are considered
“chargeable.” Id.
25. The purposes of the State Bar set forth in
SCR 10.02(2):
The purposes of the association are to aid the
courts in carrying on and improving the administration of justice; to foster and maintain
on the part of those engaged in the practice of
https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=26856.
8 https://www.wisbar.org/aboutus/membership/documents/keller-dues.pdf.
7

App. 19
law high ideals of integrity, learning, competence and public service and high standards
of conduct; to safeguard the proper professional interests of the members of the bar; to
encourage the formation and activities of local
bar associations; to conduct a program of continuing legal education; to assist or support
legal education programs at the preadmission
level; to provide a forum for the discussion of
subjects pertaining to the practice of law, the
science of jurisprudence and law reform and
the relations of the bar to the public and to
publish information relating thereto; to carry
on a continuing program of legal research in
the technical fields of substantive law, practice and procedure and make reports and recommendations thereon within legally permissible limits; to promote the innovation, development and improvement of means to deliver
legal services to the people of Wisconsin; to
the end that the public responsibility of the
legal profession may be more effectively discharged.
SCR 10.02(2)
26. The State Bar’s Government Relations program is the “lobbying arm of the State Bar and some
of its practice sections.” Government Relations, State

App. 20
Bar of Wisconsin.9 “The State Bar's Government Relations (GR) program works with State Bar members
and state government officials (including legislators,
executive branch and judicial branch agencies and
their staff) to improve the administration of justice
and the delivery of legal services in Wisconsin.” Id.
27. The State Bar has identified the following
practice sections within the State Bar as permitted to
lobby: Bankruptcy, Insolvency & Creditors' Rights;
Business Law; Children & the Law; Civil Rights &
Liberties; Construction & Public Contract Law; Criminal Law; Dispute Resolution; Elder Law and Special
Needs; Family Law; Health Law; Indian Law; Litigation; Public Interest Law; Real Property, Probate &
Trust Law; and Taxation Law. Sections, State Bar of
Wisconsin.10 A lobbying section must “charge[] annual dues at least equal to the cost of its legislative
program so that the cost need not be borne by section
nonmembers.” SCR 10.05(4)(e).
28. All Plaintiffs are attorneys licensed to practice law in Wisconsin.
29. To maintain their licensure as attorneys in
Wisconsin and as a condition of engaging in their cho-

https://www.wisbar.org/aboutus/governmentrelations/Pages/government-relations.aspx#/ (last visited Mar. 7,
2019).
10 https://www.wisbar.org/aboutus/overview/pages/sections.aspx
(last visited Mar. 7, 2019).
9

App. 21
sen profession, Plaintiffs are compelled to be members of the State Bar and pay membership dues every
year.
30. By enforcing those requirements, Defendants
act under color of state law.
B. The State Bar Speaks on Matters of Public Interest, Using Funds Plaintiffs Are Forced
to Provide as a Condition to Practicing Law in
Wisconsin
31. The State Bar uses compelled membership
dues to fund its speech on a broad range of matters of
public interest.
32. The State Bar regularly proposes legislation
to the Wisconsin Legislature.
33. The State Bar regularly advocates on public
policy issues, including legislation.
34. The State Bar engages in a variety of speech
and advocacy directed to the public.
35. The State Bar publishes a variety of material
addressing matters of public interest and concern.
These publications include the Wisconsin Lawyer, the
WisBar Inside Track, the Rotunda Report, the State
Bar of Wisconsin website, the State Bar’s Twitter
feed, the State Bar’s Facebook page, and books and
pamphlets.
36. The State Bar regularly publishes publications on matters of intense public controversy.

App. 22
37. The State Bar’s speech includes the following
policy-related advocacy that was funded, at least in
part, through compelled membership dues:
a. Advocacy for Criminal Justice Issues
in Governor’s Budget. In March 2019, the State
Bar released a statement applauding the Governor’s
budget supporting increases in private bar rate, additional resources to District Attorneys and State Public Defenders, and addressing the “state’s justice gap,
by continuing to fund civil legal services.”11
b. Advocacy for Juvenile Justice Reform.
In February 2019, the State Bar announced its support for the Governor’s “proposal to return 17 yr olds
to juvenile justice system” through Twitter.12 The
posting provides an accompanying article local newspaper article entitled, “Gov. Evers Seeks To Raise The
Age For Charging Teens As Adults And Delay Closure
Of Lincoln Hills” describing the Governor’s plan and
the associated debate over it.
c. Advocacy Concerning State’s Criminal
Justice Budget. In February 2019, the State Bar issued a statement in response to the Wisconsin Assembly Republican’s unveiling of comprehensive criminal
https://www.wisbar.org/NewsPublications/RotundaReport/Pages/Article.aspx?ArticleID=26871
12 https://twitter.com/SBWRotundaRpt/status/1100804160793034752. The SBW Rotunda Report
(@SBWRotundaRpt) is the Twitter account that is self-described as: “The Government Relations program at the State
Bar of Wisconsin works on issues of importance to the courts,
the legal profession and the public.”
11

App. 23
justice budget initiatives. The response focused on the
Bar’s support to pay progression for assistant district
attorneys, public defenders, and private attorneys
taking on public defender cases.13
d. Advocacy to Increase Private Bar Rate
in Criminal Justice Budget. In February 2019, the
State Bar posted a request on Twitter to: “Make your
voice heard. Ask Governor Evers to include an increase to the private bar rate in his budget proposal
this year,” with a link to online State Bar article advocating same.14
e. Advocacy on Abortion Coverage. The
State Bar actively opposed legislation relating to “prohibiting coverage of abortions through health plans
sold through exchanges.”15
f. Advocacy for Criminalizing Threats or
Harm to Attorneys. In April 2018, the State Bar
“worked on” and “supported” legislation the State enacted that made it a “Class H felony to threaten or
cause bodily harm to an attorney or other representative of the court or their family involved in proceedings affecting children and families.”16
https://www.wisbar.org/NewsPublications/RotundaReport/Pages/Article.aspx?ArticleID=26855
14 https://twitter.com/SBWRotundaRpt/status/1093955107941699585.
15 https://www.wisbar.org/aboutus/governmentrelations/pages/policy-positions.aspx (providing Bar’s position on
Assembly Bill 154 in the 2015-2016 legislative term).
16 https://www.wisbar.org/NewsPublications/RotundaReport/Pages/Article.aspx?ArticleID=26282.
13

App. 24
g. Advocacy for Elder Law Reform. The
State Bar’s Elder Law Section supported legislation
related to the adoption of the Uniform Adult Guardianship and Protective Proceedings Jurisdiction Act
signed into law in April 2018.17
h. Advocacy for Family Law Legislation
Addressing Child Relocation. The State Bar’s
Family Law Section supported bill enacted in April
2018 that affected children subject to legal custody by
“provid[ing] a clear process” to a parent desiring to
move more than 100 miles away.18
i. Advocacy for Restoring Legal Services
Corporation (LSC) Funding. In 2017, the State
Bar urged the restoration of LSC funding eliminated
in President Trump’s proposed 2018 federal budget.
The LSC funded two state-wide organizations that
provided free legal services to low income individuals
related to civil matters. The State Bar President expressed grave concerns over the funding elimination
and the “burden [elimination] will place on low income families in Wisconsin, and the resulting challenges to our state's justice system.”19 On Apr. 7,
2017, the State Bar tweeted, “Wisconsin attorneys,
advocates say Trump budget cuts threaten legal aid
https://www.wisbar.org/NewsPublications/InsideTrack/Pages/Article.aspx?Volume=10&Issue=6&ArticleID=26254 (discussing Assembly Bill 629 under “Adult
Guardianship Law” in legislative wrap-up).
18 Id. (discussing Assembly Bill 551 under “Child Custody” in
legislative wrap-up).
19 https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=25489.
17

App. 25
organizations”20 with linked article.21 On Apr. 17,
2017, the State Bar tweeted, “Lawyers, advocates for
the poor rally to save Legal Services Corp. from
Trump budget cut”22 with linked article. The article
provided: “There have been prior runs at trimming
back the LSC, but nothing like the complete elimination Trump has proposed.” The article concluded with:
“At a speech commemorating the LSC's 40th anniversary, the late Justice Antoni Scalia said the organization, ‘pursues the most fundamental of American ideals, and it pursues equal justice in those areas of life
most important to the lives of our citizens.’”23
j. Advocacy To Include Parent of Sibling
to Notice of Removal. In 2015, the State Bar actively supported the 2015 Wisconsin Act 101.24The
Act added to the adult relatives that must be notified
upon a child’s removal from the custody of the child’s

https://twitter.com/StateBarofWI/status/850372496905863169.
21 https://madison.com/ct/news/local/govt-and-politics/madisonattorneys-advocates-say-trump-budget-cuts-threaten-legalaid/article_632664d7-4a5f-5f4c-8342dde6e057b60a.html?utm_medium=social&utm_source=twitter&utm_campaign=user-share.
22 https://twitter.com/StateBarofWI/status/852877074566189057.
23 https://www.jsonline.com/story/news/blogs/proof-and-hearsay/2017/04/13/lawyers-advocates-poor-rally-save-legal-services-corp-trump-budget-cut/99592964/.
24 https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx#Position (providing Bar’s position on Assembly Bill 193 in the 2015-2016 legislative term).
20

App. 26
parent the “parent of a sibling of the child who has
legal custody of that sibling.”25
k. Advocacy Related to Unemployment
Insurance Fraud. In 2015, the State Bar opposed a
bill that would ban people who defraud the State’s insurance program.26
l. Advocacy Against Amending Child
Custody Presumptions. The State Bar actively opposed a bill introduced in 2013 that provided “when
the court allocates periods of physical placement, instead of maximizing the amount of time a child may
spend with each parent, taking into consideration geographic separation and accommodations for different
households, the court must presume that a placement
schedule that equalizes to the highest degree the
amount of time the child may spend with each parent
is in the child's best interest.”27 The bill failed to pass.
m. Advocacy Against Confidentiality Exception for School Officials. In 2011, the State Bar
actively opposed a bill that would make an exception
to the existing confidentiality privilege related to communication with a school guidance counselor, school
teacher, or teacher's aide when the school guidance
http://docs.legis.wisconsin.gov/2015/related/proposals/ab193.
https://wislawjournal.com/2015/09/29/state-bar-weighs-in-onproposed-unemployment-benefits-ban/.
27 https://docs.legis.wisconsin.gov/2013/related/proposals/ab540
(Assembly Bill 540 with Legislative Reference Bureau analysis); see also https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx#Position (providing Bar’s position on Assembly Bill 540 in the 2015-2016 legislative term).
25
26

App. 27
counselor, school teacher, or teacher's aide received
information “he or she [was] required to report under
the state's mandatory child abuse and neglect reporting laws.”28
n. Advocacy To Restore Felon Voting
Rights. The State Bar actively supported a bill introduced in 2009 to restore the voting rights to felons.29
The bill failed to pass.
o. Advocacy to Eliminate Spiritual Exception to Child Abuse Law. The State Bar actively supported a bill to remove an exception for spiritual treatment versus medical or surgical treatment
of a child as related to child abuse laws. The bill,30
Assembly 590, failed to pass.31
p. Advocacy Against DNA Samples From
Juvenile Sex Offenders. The State Bar actively opposed a bill requiring “law enforcement agencies to
collect a biological specimen for DNA analysis from
https://docs.legis.wisconsin.gov/2011/related/proposals/ab249
(Assembly Bill 249 with Legislative Reference Bureau analysis); see also https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx#Position (providing Bar’s position on Assembly Bill 249 in the 2015-2016 legislative term).
29 https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx (providing Bar’s position on
Assembly Bill 353 in the 2015-2016 legislative term); see also
http://docs.legis.wisconsin.gov/2009/related/proposals/ab353
(bill supported).
30 http://docs.legis.wisconsin.gov/2009/related/proposals/ab590.pdf.
31 https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx (providing Bar’s position on
Assembly Bill 590 in the 2015-2016 legislative term).
28

App. 28
every adult who is arrested for a felony and every juvenile who is taken into custody for certain sexual assault offenses that would be felonies if committed by
an adult.”32 The bill failed to pass.
q. Advocacy for Legal Services Consumer Protection Act. In 2007, the State Bar petitioned the State Supreme Court, which has jurisdiction over the practice of law in the state, to adopt a
rule clearly defining the “‘practice of law’ for consumer protection purposes” and, to “[c]reate an administrative system to enforce the new rule.”33
r. Advocacy on Policies Respecting the
Legal Profession. The State Bar takes legislative
positions on items deemed of importance to the legal
profession guided by six principles: Regulation of the
Practice of Law; Delivery of Legal Services; Administration of Justice; Funding of the Justice System;
Criminal Practice and Procedure; and Civil Practice
and Procedure. The Bar posts its Policy Position
Statements online (see “Policy Positions—2016” entry
below). State Bar positions on current legislation include strong support for both expungement of certain
crimes and allowing district attorneys, deputy district

http://docs.legis.wisconsin.gov/2009/related/proposals/ab511.pdf; see also https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx (providing Bar’s
position on Assembly Bill 511 in the 2015-2016 legislative
term).
33 https://tinyurl.com/WSB-advocacy-LSCPA.
32

App. 29
attorneys, and assistant district attorneys engage in
the private practice of law for certain civil purposes.34
38. The State Bar’s speech includes the following
additional advocacy:
a. Policy Positions—2016. The State Bar
published a book of its policy positions.35 Policy areas
covered include: regulation and the practice of law;
delivery of legal services; administration of justice;
funding of the justice system; criminal practice and
procedure; and civil practice and procedure. Select positions include:
i.
Supports State Supreme Court
Regulation of the Bar and Maintenance of the
Integrated Bar. The State Bar supports its regulation by the State Supreme Court, opposes transfer of
regulation to another government branch, and opposes “any legislative attempt to restrict the Court’s
authority over fees and assessments related to the
State Bar or the regulation of the practice.”36

https://www.wisbar.org/aboutus/governmentrelations/Pages/Policy-Positions.aspx#Position (providing six principles for legislative positions);
https://www.billtrack50.com/Public/Stakeholder/plv0dxACCUCOAvljvFiOeg (State Bar positions on bills in the 2019-2020
legislative term); http://docs.legis.wisconsin.gov/2019/related/proposals/ab33.pdf (Assembly Bill 33 concerning expungement).
35 State Bar of Wisconsin Policy Positions 2016, State Bar of
Wisconsin (2016), https://www.wisbar.org/aboutus/governmentrelations/Documents/BOGPolicyPositions2017.pdf.
36 Id. at 7.
34

App. 30
ii.
Opposes Expanding Powers of
Realtors. The State Bar opposes efforts to expand
the powers of real estate licensees to provide legal advice, including enhancing abilities to negotiate and
draft contracts and explain “consequences of action
taken during transactions.”37
iii. Opposes Regulation of the Bar
Except by the State Supreme Court. The State
Bar opposes transfer of regulation of the Bar from the
State Supreme Court to any other branch of government.38
iv. Opposes Professional Tax on Legal Services. The State Bar believes access to legal
services is “essential to the operation of an ordered
society” and a legal service tax would increase legal
fees and reduce low-income and moderate-income access to justice.39
v.
Opposes Tax Reform Act. The
State Bar opposes converting tax evaluation on law
firms from computation on cash receipts and disbursements method to an accrual method.40
vi. Supports Enforcement Against
the Unauthorized Practice of Law. The State Bar
believes persons engaging in the unauthorized practice of law are “harmful to consumers” of the State

Id.
Id.
39 Id.
40 Id.
37
38

App. 31
and supports “meaningful enforcement” of violations.41
vii. Supports Diversity. The State Bar
is an “inclusive organization” that encourages “diversity among its leadership, its membership and the entire legal community”; encourages “local and specialty
bars to promote diversity and inclusion in their membership and leadership”; and encourages “legal employers and law firms to promote diversity and inclusion within their workplaces.”42
viii. Supports Expungement of Criminal Records Under State Supreme Court. The
State Bar supports the “broad remedial purpose of expungement” and supports the authority of the State’s
Supreme Court to provide lower state courts with
guidance on expungement.43
ix. Opposes Certain State Immigration Laws. The State Bar “opposes any state efforts
to regulate actions that conflict” with the Supremacy
Clause “whenever the federal government is acting in
pursuit of its constitutionally authorized powers.
Consequently, the State Bar opposes any state efforts
related to immigration that encourage a conflict to
arise between federal law and either the state constitution or state law.”44

Id. at 8.
Id. at 12.
43 Id. at 13.
44 Id.
41
42

App. 32
x.
Supports Public Financing of
State Supreme Court Campaigning. The State
Bar supports public funding of State Supreme Court
campaigns to maintain the court’s integrity and independence.45
xi. Supports Returning Jurisdiction
Over 17-year-olds to Juvenile System. The State
Bar support returning original jurisdiction of 17-yearold juveniles to the juvenile justice system because it
believes the adult criminal justice system is “neither
adequately equipped nor designed to handle juveniles
in the adult system.”46 However, the Bar does not advocate the elimination of the ability to try “truly dangerous and mature 17-year-olds in adult court when
appropriate.”47
xii. Opposes Death Penalty. The State
Bar opposes reinstatement of the death penalty in the
State.48
xiii. Opposes Racial and Ethnic Profiling.49
xiv. Supports Noneconomic Damage
Awards for Unlawful Discrimination. The State
Bar advocates that noneconomic damage awards for
unlawful discrimination receive the same federal tax

Id. at 14.
Id. at 20.
47 Id.
48 Id. at 21.
49 Id. at 22.
45
46

App. 33
treatment as noneconomic damage awards for personal injury.50
b. Commentary on Online Gun Sales. On
Feb. 15, 2019, the State Bar tweeted, “Should federal
internet law protect gun site Armslist from liability in
the Azana Spa mass shooting?”51 with linked article.
The article discusses a gun maker liability case in the
Wisconsin State Supreme Court addressing whether
a “web-based gun marketer can be held liable for facilitating an unlawful weapon sale.” The article
quotes Patti Seger, executive director of End Domestic Abuse Wisconsin: “If the Supreme Court overturns
the lower court decision to find that Armslist is immune from suit, domestic abusers will continue to
have easy — and deadly — access to firearms.”52
c. Advocacy on Second Amendment
Rights. On May 10, 2018, the State Bar tweeted, “Is
the Supreme Court Taking Action on Guns By Not
Acting?”53 and linked to an article. The article discusses SCOTUS not taking up lower court decisions
that have upheld restrictions on the Second Amendment individual right to keep and bear arms. The article observes the Court’s inaction “has led some to assume that the Roberts court has become a silent but
Id. at 27.
https://twitter.com/StateBarofWI/status/1096474255204732932.
52 https://www.jsonline.com/story/news/crime/2019/02/14/gunsales-website-armslist-argues-immunity-azana-spa-shooting/2863293002/.
53 https://twitter.com/StateBarofWI/status/972484759589924864.
50
51

App. 34
influential partner on the side of gun-control advocates, taking action by deciding not to act. But [a law
professor] says the court has walked more of a middle
path, weighing in sparingly on the issue and allowing
the states and the lower federal courts to define the
Second Amendment.”54
d. Advocacy on Sexual Harassment in
the Legal Profession. In December 2018, the State
Bar Board of Governor’s “adopted an official policy
against sexual harassment in the legal profession and
encouraged State Bar members to make a similar
commitment within law firms and legal departments.”55
e. Adoption of “Diversity & Inclusion Action Plan.” In December 2018, the State Bar Board
of Governor’s adopted a detailed action plan to advance diversity and inclusion within the legal profession—one of the State Bar’s five strategic priorities.
Strategic Priorities, State Bar of Wisconsin (June 15,
2016). “The action plan includes steps to promote diversity and inclusion among State Bar leadership, including officers, board members, and committee members. It also emphasizes strengthening the State Bar’s
relationship with affinity bar associations and other
diverse legal groups.” “[T]he plan calls for recruiting
https://www.usnews.com/news/the-report/articles/2018-0307/is-the-supreme-court-taking-action-on-guns-by-not-acting?src=usn_tw.
55 https://www.wisbar.org/newspublications/pages/general-article.aspx?articleid=26732 (discussing adoption of anti-sexual
harassment policy).
54

App. 35
and training diverse attorneys for leadership positions within the State Bar and to serve as advisors on
diversity and inclusion issues” and “increasing diversity among the leadership of section and division
boards and their memberships” as well “State Bar
programming and publications.”56
f. Advocacy on “Disparate and Mass Incarceration.” In June 2018, the State Bar’s Board of
Governor’s adopted policy positions related to “disparate and mass incarceration to include: (1) supporting
reform to bail and pretrial detention laws and to move
forward with a risk-assessment instrument as the basis for pretrial detention decisions; (2) amending statutes to facilitate prompt release of inmates with “extraordinary health conditions” deemed not a threat to
public safety; (3) expanding geriatric release statute
to allow earlier release for older inmates; and (4) supporting regular collection and dissemination of data
on racial disparities in the criminal justice system.57
g. Commentary on Churches Challenging City’s LGBT Ordinance. On Feb. 26, 2018, the
State Bar tweeted, “Churches Challenge Wisconsin
City’s LGBT Ordinance”58 with linked article. The article opens with: “Five churches and a Christian radio
station sued a Wisconsin city, claiming its recently

Id. (discussing “Board Adopts Diversity & Inclusion Plan”).
https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=26433.
58 https://twitter.com/StateBarofWI/status/968186448867446784.
56
57

App. 36
passed nondiscrimination ordinance protecting
transgender residents should not apply to them.”59
h. Advocacy on President Trump’s National Labor Relations Board Nominee. On Feb.
1, 2018, the State Bar tweeted, “If confirmed by the
Senate, John Ring, President Trump's nominee for
chair of the National Labor Relations Board, will restore the pro-management majority to the NLRB.
Just what might be expected after his confirmation?”60 and a link to an article.61 The article discussed
the NLRB’s “roll[] back [of] several key decisions announced since 2009” because of the new Republican
majority on the NLRB. The author observed “President Trump nominated Miscimarra's replacement:
John Ring, an accomplished management-side labor
lawyer” and predicted, “Once confirmed by the Senate, his appointment will restore the pro-management majority to the NLRB, so that it can get back to
the business of rolling back the radical agenda announced over recent years.”62
i. Commentary on President Trump’s
“Refugee Ban.” On Feb. 2, 2017, the Wisconsin
State Bar published an article to its website’s Labor
and Employment Law Section Blog entitled, “How
Should Employers Respond to Trump’s Muslim Ban?”
https://www.courthousenews.com/churches-challenge-wisconsin-citys-lgbt-ordinance/.
60 https://twitter.com/StateBarofWI/status/959177162829041664.
61 https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=26132.
62 Id.
59

App. 37
The article opened with a factual account of the executive order, then provided considerations for employers related to the executive order’s impact on their
businesses. The article then shifted tone with a subheading, “Why the Executive Order Is Immoral and
Unconstitutional.” The author wrote:
Much has been said about this ban by many
commentators. I usually would not criticize
political actions in such an article and would
focus instead on the impacted legal and business issues. I realize this additional commentary may be off-putting to readers and even
potentially harmful for future prospects. I understand if that is your reaction and accept
any subsequent consequences. However, this
executive action offends core constitutional
principles and values that I respect as an immigrant and as an attorney. Therefore, I cannot simply gloss over its obnoxious aspects.
Nilesh Patel, How Should Employers Respond to
Trump’s Muslim Ban?, State Bar of Wisconsin’s Labor
& Employment Law Blog (Feb. 2, 2017). 63 The postscript to the article provided: “From the editor: We are
aware that there may be multiple viewpoints on blog
topics. We welcome submissions that may provide a
counterpoint to this or any Labor and Employment
Law Section Blog topic.” Id.

https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=25372.
63

App. 38
j. Response to Statements by President
Trump. On February 10, 2017, in response to President Trump’s tweets referencing a district court judge
that suspended an executive order, including characterizing the judge as a “so-called judge,” the State
Bar’s Board of Governors adopted a statement characterizing the President’s tweets as “ill-considered,”
discussing the rule of law and an independent judiciary, and stating “there are no ‘so-called judges’ in
America.”64 On the same day, the Bar tweeted, “Board
of Governors urge respect for independent judiciary,
addresses comments by President Trump” with link
to the statement.
k. Advocacy for Nondiscrimination Policies Based on Sexual Orientation and Gender
Identity. On July 24, 2015, the State Bar tweeted,
“Tip: Implementing nondiscrimination policy? Include sexual orientation, gender identity. Attend
LGBT session”65 with link to registration website.
l. Advocacy for Prosecutor Funding. In
2010, the State Bar President warned that potential
funding cuts by the Governor could “adverse[ly] impact [the State’s] justice system.”66
m. Advocacy for Access to Justice, “Consumer Safeguards,” and “Judicial Campaign
https://www.wisbar.org/NewsPublications/Pages/General-Article.aspx?ArticleID=25403.
65 https://twitter.com/StateBarofWI/status/624675936298889217.
66 https://www.wisbar.org/NewsPublications/Newsroom/Old%20Press%20Releases%20pre2011/ADAPressRelease.pdf.
64

App. 39
Reform.” In 2007, the incoming State Bar President
announced to over 1000 attorneys at the Bar’s annual
convention that he would push for “improved access
to justice, consumer safeguards and judicial campaign
reform during his one-year term.”67
39. The advocacy by the State Bar described
above, as well as other speech by and published by the
State Bar, concerns matters of public interest and
concern.
C. The Plaintiffs Disagree with the State
Bar’s Speech and Object to Being Associated
with the State Bar
40. The State Bar is an expressive association—
that is, its members join together for the purpose of
engaging in advocacy and other speech.
41. Plaintiffs are compelled to pay annual membership dues.
42. The Plaintiffs are compelled to subsidize the
State Bar’s speech on matters of public interest and
concern.
43. The State Bar provides a limited mechanism
by which members may avoid subsidizing some of the
State Bar’s speech. The State Bar provides an optional dues reduction for certain “nonchargeable” activities that currently includes “all direct lobbying activity.” Board Adopts Policy on Dues Rebate Amount,
https://www.wisbar.org/NewsPublications/Newsroom/Old%20Press%20Releases%20pre2011/BastingPressRelease.pdf.
67

App. 40
Supports Pro Hac Vice Exemption, State Bar of Wisconsin (Feb. 9, 2018).68 The State Bar requires members to opt-out of financing activities it deems “nonchargeable.”
44. Nonetheless, the State Bar still treats as
“chargeable” much of its speech on matters of public
interest and concern, including non-lobbying advocacy concerning the regulation of the legal profession
and legal reform and speech on many subjects pertaining to the practice of law, the operation of government, and the provision of public services.
45. Accordingly, there is no mechanism by which
a member may avoid subsidizing entirely the State
Bar’s speech on matters of public interest and concern.
46. Plaintiffs individually disagree with portions
of the State Bar’s speech on matters of public interest
and oppose being compelled to support that speech
with their membership dues.
47. In particular, Plaintiffs disagree with the following speech by the State Bar:
a. Plaintiff Adam Jarchow disagrees with the
State Bars speech and advocacy on, among other
things, criminal justice issues, Legal Services Corporation Funding, felon voting rights, maintaining an

https://www.wisbar.org/NewsPublications/InsideTrack/Pages/Article.aspx?Volume=10&Issue=3&ArticleID=26170.
68

App. 41
integrated bar, the unauthorized practice of law, professional taxes, tax reform, immigration law, public
campaign financing, and the death penalty.
b. Plaintiff Michael D. Dean disagrees with
the State Bar’s speech and advocacy on, among other
things, unemployment insurance fraud, free exercise
of religion, the unauthorized practice of law, and immigration law.
48. Plaintiffs individually disagree with other
speech by the State Bar.
49. Plaintiffs do not wish to fund the State Bar’s
advocacy and other speech and, if given the choice,
would not fund those activities.
50. Plaintiffs object to being required to be members of the State Bar of Wisconsin.
51. Plaintiffs object to associating with the State
Bar and its speech.
52. Plaintiffs have suffered, are suffering, and
will suffer irreparable harm from being required to
join and pay dues to the State Bar.
D. Mandatory Membership in, and Compelled Contribution to, the State Bar Is Not Tailored To Support Any Compelling State Interest
53. The only possible state interests served by requiring attorneys to join and pay dues to the State
Bar are regulating the legal profession and improving
the quality of legal services.

App. 42
54. Eighteen states regulate the practice of law
without requiring attorneys to join and pay dues to a
bar association.
55. Like those eighteen states, Wisconsin could
use means significantly less restrictive of First
Amendment freedoms than compelling membership
and funding of the State Bar to regulate the legal profession and improve the quality of legal services.
Count One: Compelling Dues Payments to the
State Bar Violates Plaintiffs’ First Amendment
Rights
56. Plaintiffs incorporate and re-allege each and
every allegation in the foregoing paragraphs as
though fully set forth herein.
57. The First Amendment to the United States
Constitution provides: “Congress shall make no
law…abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and
to petition the government for a redress of grievances.”
58. The Fourteenth Amendment to the United
States Constitution incorporates the protection of the
First Amendment against the States.
59. The freedom of speech “includes both the
right to speak freely and the right to refrain from
speaking at all.” Wooley v. Maynard, 430 U.S. 705,
714 (1977).
60. The First Amendment likewise protects
“right to eschew association for expressive purposes.”

App. 43
Janus v. Am. Fed'n of State, Cty., & Mun. Employees,
Council 31, 138 S. Ct. 2448, 2463 (2018).
61. Compelled association is permissible only
when it “serve[s] a compelling state interest that cannot be achieved through means significantly less restrictive of associational freedoms.” Janus, 138 S. Ct.
at 2465.
62. By requiring Plaintiffs to make financial contributions in support of the State Bar, Defendants impinge the Plaintiffs’ rights under the First and Fourteenth Amendments to be free from compelled association.
63. Because Wisconsin could regulate the legal
profession through means significantly less restrictive of First Amendment freedoms, compelling dues
payments to subsidize the State Bar’s speech violates
Plaintiffs’ rights under the First and Fourteenth
Amendments.
64. Plaintiffs have no adequate remedy at law.
65. The controversy between Defendants and
Plaintiffs is a definite and concrete dispute concerning the legal relations of parties with adverse legal interests.
66. The dispute is real and substantial, as the Defendants are continuing to collect fees from Plaintiffs’
as a condition of practicing law in Wisconsin.
67. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to a

App. 44
mere advisory opinion, as the parties dispute the legality of the ongoing requirement to pay dues.
68. As a result of the foregoing, an actual and justiciable controversy exists between the Plaintiffs and
the State Bar regarding their respective legal rights,
and the matter is ripe for review.
69. Plaintiffs are entitled to injunctive and declaratory relief providing that the requirement to pay
membership dues to the State Bar as a condition of
being licensed to practice law in Wisconsin is unconstitutional.
Count Two: Requiring Plaintiffs To Join the
State Bar Violates Their First Amendment
Rights
70. Plaintiffs incorporate and re-allege each and
every allegation in the foregoing paragraphs as
though fully set forth herein.
71. By requiring Plaintiffs to be members of the
State Bar, Defendants are impinging the Plaintiffs’
rights under the First and Fourteenth Amendments
to be free from compelled speech and compelled association.
72. Because Wisconsin could regulate the legal
profession through means significantly less restrictive of First Amendment freedoms, compelling membership in the State Bar violates Plaintiffs’ rights under the First and Fourteenth Amendments.
73. Plaintiffs have no adequate remedy at law.

App. 45
74. The controversy between Defendants and
Plaintiffs is a definite and concrete dispute concerning the legal relations of parties with adverse legal interests.
75. The dispute is real and substantial, as the Defendants are continuing to require Plaintiffs to maintain membership in the State Bar as a condition of
practicing law in Wisconsin.
76. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to a
mere advisory opinion, as the parties dispute the legality of the ongoing requirement to maintain membership in the State Bar.
77. As a result of the foregoing, an actual and justiciable controversy exists between the Plaintiffs and
the State Bar regarding their respective legal rights,
and the matter is ripe for review.
78. Plaintiffs are entitled to injunctive and declaratory relief providing that the requirement to become a member of the State Bar as a condition of being licensed to practice law in Wisconsin is unconstitutional.
Costs and Attorneys’ Fees
79. Pursuant to 42 U.S.C § 1988, the Plaintiffs
seeks an award of costs and attorneys’ fees incurred
in the litigation of this case.
Prayer for Relief
For these reasons, Plaintiffs requests that the Court:

App. 46
(A) Enter a judgment declaring that Wisconsin’s
statute requiring payment of mandatory dues to the
State Bar, codified by the operation and effect of SCR
10.01; id. 10.03(2)-(6); and id. ch. 10 app., art. I, § 3,
impermissibly abridges Plaintiffs’ First Amendment
rights;
(B) Enter a judgment declaring that Wisconsin’s
statute requiring membership in the State Bar, codified at SCR 10.01(1), impermissibly abridges Plaintiffs’ First Amendment rights;
(C) Enjoin Defendants from continuing to collect
membership dues;
(D) Enjoin Defendants from continuing to require
membership in the State Bar;
(E) Order Defendants to refund Plaintiffs’ membership-dues payments collected in violation of Plaintiffs’ rights;
(F) Grant Plaintiffs additional or different relief as
the court deems just and proper, including an award
of reasonable attorneys’ fees and costs of this action.
Respectfully submitted,
Dated April 8, 2019
/s/ RICHARD M. ESENBERG
RICHARD M. ESENBERG,
WI Bar No. 1005622
WISCONSIN INSTITUTE FOR LAW & LIBERTY

App. 47
1139 East Knapp Street
Milwaukee, WI 53202-2828
(414) 727-9455 (phone)
(414) 727-6385 (fax)
rick@will-law.org
DAVID B. RIVKIN, JR.*
ANDREW M. GROSSMAN*
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, DC 20036
(202) 861-1697 (phone)
(202) 861-1783 (fax)
agrossman@bakerlaw.com
Attorneys for Plaintiff
* pro hac vice motions pending

App. 48
Wisconsin Supreme Court Rule 10.01
State bar of Wisconsin.
(1) There shall be an association to be known as
the “state bar of Wisconsin" composed of persons licensed to practice law in this state, and membership
in the association shall be a condition precedent to the
right to practice law in Wisconsin.
(2) The supreme court by appropriate orders
shall provide for the organization and government of
the association and shall define the rights, obligations
and conditions of membership therein, to the end that
the association shall promote the public interest by
maintaining high standards of conduct in the legal
profession and by aiding in the efficient administration of justice.
Wisconsin Supreme Court Rule 10.02
Organization of the state bar of Wisconsin.
(1) CREATION OF ASSOCIATION. All persons licensed to practice law in this state are organized as
an association to be known as the “state bar of Wisconsin," subject to the provisions of this chapter. The
rules of this chapter, which are adopted in the exercise of the court's inherent authority over members of
the legal profession as officers of the court, may be referred to as “state bar rules." The state bar may, for
the purpose of carrying out the purposes for which it
is organized, sue and be sued, enter into contracts, acquire, hold, encumber and dispose of real and personal property.

App. 49
(2) PURPOSE. The purposes of the association are
to aid the courts in carrying on and improving the administration of justice; to foster and maintain on the
part of those engaged in the practice of law high ideals
of integrity, learning, competence and public service
and high standards of conduct; to safeguard the
proper professional interests of the members of the
bar; to encourage the formation and activities of local
bar associations; to conduct a program of continuing
legal education; to assist or support legal education
programs at the preadmission level; to provide a forum for the discussion of subjects pertaining to the
practice of law, the science of jurisprudence and law
reform and the relations of the bar to the public and
to publish information relating thereto; to carry on a
continuing program of legal research in the technical
fields of substantive law, practice and procedure and
make reports and recommendations thereon within
legally permissible limits; to promote the innovation,
development and improvement of means to deliver legal services to the people of Wisconsin; to the end that
the public responsibility of the legal profession may
be more effectively discharged.
(3) DEFINITION. In this chapter, “state bar"
means the state bar of Wisconsin.
Wisconsin Supreme Court Rule 10.03
Membership.
(1) PERSONS INCLUDED IN MEMBERSHIP. As of the
effective date of this rule, membership of the state bar

App. 50
consists of all those persons who on that date are licensed to practice law in this state. After the effective
date of this rule, the membership includes all persons
who become licensed to practice law in this state; subject in each case to compliance with the conditions and
requirements of membership. Residence in this state
is not a condition of eligibility to membership in the
state bar.
(2) ENROLLMENT. Every person who becomes licensed to practice law in this state shall enroll in the
state bar by registering his or her name and social security number with the association within 10 days after admission to practice. Every change after enrollment in any member's office address or social security
number shall be reported promptly to the state bar.
The social security number of a person enrolling in
the state bar may not be disclosed to any person or
entity except the supreme court and its agencies, or
as otherwise provided by supreme court rules.
(3)

CLASSES OF MEMBERSHIP.

(a) The members of the state bar are divided
into 4 classes: active members, judicial members, inactive members and emeritus members. The class of
active members includes all members of the state bar
except the judicial members and inactive members.
The class of inactive members includes those persons
who are eligible for active membership but are not engaged in the practice of law in this state and have filed
with the secretary of the association written notice requesting enrollment in the class of inactive members.
The class of judicial members includes the following

App. 51
persons: supreme court justices, court of appeals
judges, circuit court judges, full-time circuit court
commissioners, full-time municipal court judges, supreme court commissioners, court of appeals staff attorneys, federal district court judges, federal appellate court judges, federal bankruptcy judges, federal
magistrate judges, federal administrative law judges,
and retired justices and judges who are eligible for
temporary judicial assignment and are not engaged in
the practice of law. Any judicial member may elect to
become an active member with all rights of active
membership except to hold office as an officer or governor or to practice law. The class of emeritus members includes those persons who are either active or
inactive members in good standing but who are at
least 70 years of age and have filed with the executive
director of the association a written notice requesting
enrollment in the class of emeritus members. An
emeritus member has all the privileges of membership in the state bar and need not pay membership
dues for the years following the year in which he or
she attains the age of 70.
(b)
1. Any inactive member in good standing who
has actively practiced law in this state during the last
10 years may change his or her classification to that
of an active member by filing with the secretary a
written request for transfer to the class of active members and by paying the dues required of active members.

App. 52
2.
a. Any inactive member in good standing who
has not actively practiced law in this state during the
last 10 years may change his or her classification to
that of an active member by filing with the secretary
a written request for transfer to the class of active
members, paying the dues required of active members, and obtaining supreme court approval as provided in subd. 2.
b. Any inactive member described in subd. 2. a.
seeking to change his or her classification to that of
an active member shall file a copy of his or her request
for transfer to active membership with both the board
of bar examiners and the office of lawyer regulation.
The member shall pay $200 each to the board of bar
examiners and the office of lawyer regulation, which
payment shall accompany the copy of the request.
Within 90 days after receipt of the copy of the request,
the board of bar examiners shall make a determination regarding compliance with continuing legal education requirements and file its finding with the clerk
of the supreme court. Within 90 days after receipt of
the copy of the request, the director of the office of
lawyer regulation shall investigate the eligibility of
the requestor and file a response with the clerk of the
supreme court in support of or in opposition to the request. Following receipt of the determination of the
board of bar examiners and the response of the office
of lawyer regulation, the supreme court shall consider
and approve or disapprove the inactive member's request for transfer to active membership.

App. 53
(bf) Any judicial member who is no longer serving in a judicial office may change his or her classification to that of an active member by filing with the
secretary a written request for transfer to the class of
active members and paying the dues required of active members.
(bm) Any inactive member in good standing
may change his or her classification to that of an
emeritus member if otherwise qualified to become an
emeritus member provided that no inactive member
who has not actively practiced law in this state or in
another state during the last two years may be transferred to emeritus status until the board of bar examiners certifies that the member has completed the
continuing legal education requirements required for
transfer to active status and the transfer is approved
by the supreme court.
(c) No judicial or inactive member may practice
law in this state or hold office or vote in any election
conducted by the state bar. No person engaged in the
practice of law in this state in his or her own behalf or
as an assistant or employee of an active member of
the state bar, or occupying a position, the duties of
which require the giving of legal advice or service in
this state, may be enrolled as an inactive member.
(4) ONLY ACTIVE MEMBERS MAY PRACTICE LAW.
(a) No individual other than an enrolled active
member of the state bar may practice law in this state
or in any manner purported to be authorized or qualified to practice law.

App. 54
(b) A court or judge in this state may allow a
nonresident counsel to appear and participate in a
particular action or proceeding in association with an
active member of the state bar of Wisconsin who appears and participates in the action or proceeding. An
order granting nonresident counsel permission to appear and participate in an action or proceeding shall
continue through subsequent appellate or circuit
court actions or proceedings in the same matter, provided that nonresident counsel files a notice of the order granting permission with the court handling the
subsequent appellate or circuit court action or proceeding.
1. Counsel who seek to provide legal services under SCR 10.04 (4) (b) shall provide the information listed in Appendix A to this rule. The applicant may also include additional information supporting the request for admission pro hac vice.
2. Counsel who seek to provide legal services under SCR 10.04 (4) (b) shall pay a nonrefundable fee of two hundred and fifty dollars ($250) for each
application for admission pro hac vice. The fee shall
be waived if the application certifies that the attorney
is employed by an agency providing legal services to
indigent clients and will be appearing on behalf of an
indigent client, or that the applicant will otherwise be
appearing on behalf of an indigent client in the proceeding and will be charging no fee for the appearance.
(c) A court in this state may allow a nonresident military counsel to appear and participate in a

App. 55
particular action or proceeding representing military
personnel without being in association with an active
member of the state bar of Wisconsin and without being subject to any application fees required by this
rule.
(cm) A court in this state may allow a nonresident attorney who seeks to appear for the limited purpose of participating in a child custody proceeding
pursuant to the Indian Child Welfare Act of 1978, 25
U.S.C. s. 1901, et seq., while representing a tribe,
without being in association with an active member of
the state bar of Wisconsin and without being subject
to any application fees required by this rule.
(d) If representing a party before an agency of
this state is limited to lawyers, an administrative law
judge or hearing examiner for a state agency may, using the same standards and procedures as a court, allow a nonresident counsel who has been retained to
appear in a particular agency proceeding to appear
and participate in that proceeding without being in
association with an active member of the state bar of
Wisconsin.
(e) A court or judge may, after hearing, rescind
permission for a nonresident counsel to appear before
it if the lawyer by his or her conduct manifests incompetency to represent a client in a Wisconsin court or
unwillingness to abide by the rules of professional
conduct for attorneys or the rules of decorum of the
court.

App. 56
(f) Counsel not admitted to the practice of law
in this jurisdiction but admitted in any other U.S. jurisdiction or foreign jurisdiction, who is employed as
a lawyer in Wisconsin on a continuing basis and employed exclusively by a corporation, association, or
other nongovernmental entity, the business of which
is lawful and consists of activities other than the practice of law or the provision of legal services, shall register as in-house counsel within 60 days after the commencement of employment as a lawyer or if currently
so employed then within 90 days of the effective date
of this rule, by submitting to the Board of Bar Examiners the following:
1. A completed application in the form set forth
in Appendix B to this rule;
2. A nonrefundable fee of two hundred and fifty
dollars ($250) to the Board of Bar Examiners;
3. Documents proving admission to practice law
in the primary jurisdiction in which counsel is admitted to practice law; and
4. An affidavit from an officer, director, or general counsel of the employing entity attesting to the
lawyer's employment by the entity and the capacity
in which the lawyer is so employed.
A lawyer registered under this subsection may provide pro bono legal services without fee or expectation
of fee as provided in SCR 20:6.1.
NOTE: See SCR 10.03 (4) Appendices A-1, A-2, and B
following this section.

App. 57
(5) MEMBERSHIP DUES
FOR CERTAIN ACTIVITIES.

AND

REDUCTION

OF

DUES

(a) The annual membership dues for state bar
operations for an active member shall be established
as provided herein. Other classes of members shall
pay the fraction of the dues of an active member as
follows: Supreme Court Justices, the full amount; inactive member, one-half; judicial members, twothirds; and members admitted to practice for 3 years
or less, one-half. For purposes of determining an active member's dues status based on the number of
years admitted, there shall be no proration based on
the exact month and year of admission. A fiscal year
for which any dues are required to be paid under Bylaw 1, Section 2 shall count as a full year and a fiscal
year for which no dues payment is required shall not
count as a year. A change in the dues of an active
member for state bar operations may be made by the
board of governors or as set forth herein. The state
bar shall include in the dues statement each year the
amount necessary to pay the costs of the Lawyer Regulation System and of the continuing legal education
functions of the Board of Bar Examiners as approved
by the Supreme Court. Judicial members other than
Supreme Court Justices are not liable to pay the portion for the costs of these boards, as reflected in the
dues statement. The state bar shall also include in the
dues statement each year an assessment to support
the public interest legal services fund, as approved by
the supreme court. The state bar shall show separately on its annual dues statement the portion of the

App. 58
total dues for state bar operations, the assessments
for each of the boards, and other assessments imposed
by the supreme court.
(b)
1. The State Bar may engage in and fund any
activity that is reasonably intended for the purposes
of the association set forth in SCR 10.02 (2). The State
Bar may not use the compulsory dues of any member
who objects pursuant to SCR 10.03 (5) (b) 3. for activities that are not necessarily or reasonably related to
the purposes of regulating the legal profession or improving the quality of legal services. Expenditures
that are not necessarily or reasonably related to the
purposes of regulating the legal profession or improving the quality of legal services may be funded only
with voluntary dues, user fees or other sources of revenue.
Comment: The term voluntary dues in SCR 10.03 (5)
(b) 1. refers to the dues of members who do not withhold dues pursuant to SCR 10.03 (5) (b) 2. or successfully object pursuant to SCR 10.03 (5) (b) 3.
2. Prior to the beginning of each fiscal year, the
state bar shall publish written notice of the activities
that can be supported by compulsory dues and the activities that cannot be supported by compulsory dues.
The notice shall indicate the cost of each activity, including all appropriate indirect expense, and the
amount of dues to be devoted to each activity. The notice shall set forth each member's pro rata portion, ac-

App. 59
cording to class of membership, of the dues to be devoted to activities that cannot be supported by compulsory dues. The notice shall be sent to every member of the state bar together with the annual dues
statement. A member of the state bar may withhold
the pro rata portion of dues budgeted for activities
that cannot be supported by compulsory dues.
3. A member of the state bar who contends that
the state bar incorrectly set the amount of dues that
can be withheld may deliver to the state bar a written
demand for arbitration. Any such demand shall be delivered within 30 days of receipt of the member's dues
statement.
4. If one or more timely demands for arbitration
are delivered, the state bar shall promptly submit the
matter to arbitration before an impartial arbitrator.
All such demands for arbitration shall be consolidated
for hearing. No later than 7 calendar days before the
hearing, any member requesting arbitration shall file
with the arbitrator a statement specifying with reasonable particularity each activity he or she believes
should not be supported by compulsory dues under
this paragraph and the reasons for the objection. The
costs of the arbitration shall be paid by the state bar.
5. In the event the decision of the arbitrator results in an increased pro rata reduction of dues for
members who have delivered timely demands for arbitration for a fiscal year, the state bar shall offer such
increased pro rata reduction to members first admitted to the state bar during that fiscal year and after
the date of the arbitrator's decision.

App. 60
(6) PENALTY FOR NONPAYMENT OF DUES. If the annual dues or assessments of any member remain unpaid 120 days after the payment is due, the membership of the member may be suspended in the manner
provided in the bylaws; and no person whose membership is so suspended for nonpayment of dues or assessments may practice law during the period of the
suspension.
(6m) PETITION FOR REINSTATEMENT FROM SUSNONPAYMENT OF DUES OR FAILURE TO
FILE A TRUST ACCOUNT CERTIFICATE.
PENSION FOR

(a) An attorney whose suspension for
nonpayment of annual membership dues for state bar
operations or assessments imposed by the supreme
court has been for a period of less than 3 consecutive
years shall be reinstated as a member by the state bar
board of governors if he or she makes full payment of
the amount owing and an additional payment of $20
as a penalty. The secretary of the state bar shall certify the reinstatement to the clerk of the supreme
court.
(b) An attorney whose suspension for
nonpayment of annual membership dues for state bar
operations or assessments imposed by the supreme
court has been for a period of 3 or more consecutive
years may file a petition for reinstatement with the
supreme court. A copy of the petition shall be served
on the board of bar examiners and the office of lawyer
regulation. Separate payments in the amount of $200
each shall be made to the board of bar examiners and
the office of lawyer regulation and shall accompany

App. 61
the petition. Within 90 days after service of the petition for reinstatement, the board shall make a determination regarding compliance and file its finding
with the supreme court. Within 90 days after service
of the petition for reinstatement, the director of the
office of lawyer regulation shall investigate the eligibility of the petitioner for reinstatement and file a response with the supreme court in support of or in opposition to the petition.
(c)
An attorney suspended from the practice of law for failure to comply with the trust account
certification requirement under SCR 20:1.15 (g) shall
be reinstated as a member by the state bar board of
governors if he or she files the prescribed certificate.
The secretary of the state bar shall certify the reinstatement to the clerk of the supreme court.
Wisconsin Supreme Court Rule 10.04
Officers.
(1) TITLES, NOMINATION, AND ELECTION. The officers of the state bar include a president, a presidentelect, an immediate past-president, a chairperson of
the board of governors, a secretary and a treasurer,
who shall be nominated and elected in the manner
provided by the bylaws. Only active members of the
state bar residing and practicing law in Wisconsin are
eligible to serve as president or president-elect of the
association. The term of office of the president, president-elect, immediate past-president and chairperson
of the board of governors is one year. The term of the

App. 62
secretary and the treasurer is 2 years, with the secretary elected in even-numbered years and the treasurer elected in odd-numbered years. The term of each
officer runs until the qualification of a successor.
Wisconsin Supreme Court Rule 10.05
Board of Governors.
(1) COMPOSITION OF BOARD. The affairs of the association shall be managed and directed by a board of
governors consisting of the 6 officers of the association, all of whom shall be ex officio members-at-large
of the board, not fewer than 34 members elected from
the state bar districts established under sub. (2), one
member selected by the young lawyers division pursuant to its bylaws, one member selected by the government lawyers division pursuant to its bylaws, five
governors selected by the nonresident lawyers division pursuant to its bylaws, one governor selected by
the senior lawyers division pursuant to its bylaws,
and three nonlawyers appointed by the supreme court
for staggered two-year terms. No person appointed by
the supreme court shall serve more than two consecutive full terms. The rights and powers of the ex officio members of the board are the same as those of
elected members. All past presidents of the Wisconsin
bar association or of the state bar of Wisconsin, the
Wisconsin state delegate to the American Bar Association house of delegates and the deans of the Marquette university and university of Wisconsin law
schools are entitled to floor privileges, but without
voting privileges.

App. 63
***
(4) FUNCTIONS.
(a) The board of governors has general charge of
the affairs and activities of the association. It may:
1. Fix the time and place of the annual meeting
of members of the association.
2. Make appropriations and authorize disbursements from the funds of the state bar in payment of the necessary expenses of the association.
3. Engage and define the duties of employees
and fix their compensation.
4. Receive, consider and take action on reports
and recommendations submitted by committees, sections and the assembly of members of the association
at any annual or special meeting.
5. Arrange for publication of official state bar
publications.
6. Conduct investigations of matters affecting
the association or the practice of law or the discipline
of members of the association.
7. Fill vacancies arising in the membership of
the board of governors or in any office except the office
of president. In each case the person appointed to fill
the vacancy shall hold office for the unexpired term.
8. Adopt bylaws and regulations, not inconsistent with this chapter, for the orderly administration of the association's affairs and activities.

App. 64
(b) The board of governors shall meet at least 4
times each year. Twenty-four members present at any
meeting constitutes a quorum. Special meetings of the
board of governors may be called in accordance with
the bylaws.
(c) The board of governors shall establish and
maintain standing committees having respectively
the functions defined in the bylaws. The board of governors may create additional standing committees
and special committees and may define the authority
and functions of those standing and special committees.
(d) The board of governors shall establish and
maintain sections for carrying on the work of the association, each within its proper field of study defined
in its bylaws. Each section consists of members who
voluntarily enroll in the section because of a special
interest in the particular field of law to which the section is dedicated. New sections may be established
and existing sections may be consolidated or discontinued by the board of governors. Each section shall
be governed by bylaws not inconsistent with this
chapter or state bar bylaws. Section bylaws and
amendments thereto become effective upon approval
of the board of governors.
(e) A section may express a position on a matter
involving a substantial issue of public policy under
the following conditions:
1. The matter is one on which the section's
views would have particular relevance.

App. 65
2. The position is adopted in accordance with
section bylaws.
3. The position is clearly taken only on behalf
of the section.
4. The section charges annual dues at least
equal to the cost of its legislative program so that the
cost need not be borne by section nonmembers. The
executive committee or board shall receive a summary of section positions on matters involving substantial issues of public policy prior to their publication but inaction by the executive committee or board
shall not be construed as support of such positions. No
committee of the association may publicly express any
conclusion or opinion respecting any substantial issue
of public policy without having procured previous authorization from either the board of governors or the
executive committee of the association.
This prohibition is not applicable to the public
release of reports made by committees to the board of
governors prior to action thereon by the board, unless
the board has otherwise ordered. If any committee or
section of the association expresses publicly any conclusion or opinion on matters other than substantial
issues of public policy, the expression shall indicate
that the conclusion or opinion is that of the section of
committee from which it emanates, rather than the
conclusion or opinion of the state bar.
(f) The members of the board of governors shall receive no compensation for services to the association,
but they and also the members of committees and the

App. 66
officers and directors of sections and of the young lawyers division, the government lawyers division, the
nonresident lawyers division, and the senior lawyers
division may be reimbursed for necessary expenses in
the performance of their duties.
(g) A summary of the minutes of each meeting of
the board of governors shall be provided to the membership in an official state bar publication, with a notation that any interested member may obtain a copy
of the minutes.
(h) The board of governors shall establish and
maintain a young lawyers division. Membership in
the division shall be voluntary. Those eligible for
membership in the young lawyers division shall be
any member of the state bar under the age of 36 years
or any member, irrespective of age, during the first 5
years following admission to the bar. This division
shall be governed by bylaws not inconsistent with
state bar rules and bylaws. The division bylaws and
amendments thereto become effective upon approval
of the board of governors. The young lawyers division
shall stimulate the interest of young lawyers in the
objectives and programs of the state bar and carry on
projects which will be of assistance to young lawyers.
(i) The board of governors shall establish and
maintain a government lawyers division. Membership in the division shall be voluntary. Those eligible
for membership in the government lawyers division
shall be any member of the state bar who is a salaried
employee of any government. This division shall be
governed by bylaws not inconsistent with state bar

App. 67
rules and bylaws. The division bylaws and amendments thereto become effective upon approval of the
board of governors. The government lawyers division
shall promote effective collaboration between the private and public sectors of the bar and provide for the
participation of publicly employed members in the
governance of the state bar.
(j) The board of governors shall establish and
maintain a non-resident lawyers division. Membership in the division shall be voluntary. Those eligible
for membership in the non-resident lawyers division
shall be any member of the state bar who has an address of record outside the state of Wisconsin. This division shall be governed by bylaws not inconsistent
with state bar rules and bylaws. The division bylaws
and amendments thereto become effective upon approval of the board of governors. The non-resident
lawyers division shall carry on projects which will be
of assistance to members outside the state of Wisconsin and provide for the participation of members outside Wisconsin in the governance of the state bar.
(k) The board of governors shall establish and
maintain a senior lawyers division. Membership in
the division shall be voluntary. Those eligible for
membership in the senior lawyers division shall be
any members of the state bar who are age 60 years or
older. The division shall be governed by bylaws not
inconsistent with state bar rules and bylaws.
The division bylaws and amendments thereto become effective upon approval of the board of gover-

App. 68
nors. The senior lawyers division shall carry on projects that will stimulate the interest of the senior lawyers in the objectives and programs of the state bar
and carry on activities which will be of assistance to
senior lawyers in the practice of law.
(m)
1. ‘Establishment.’ The board of governors may
provide assistance programs, including assistance in
law office management, and assistance to judges, lawyers, law students, and their families in coping with
alcoholism and other addictions, mental illness, physical disability, and other problems related to or affecting the practice of law.
The board may establish committees, hire staff,
and obtain volunteers as reasonably necessary to provide assistance. The board shall establish policies consistent with the purposes of the state bar and in furtherance of the public interest in the competence and
integrity of the legal profession.
2. ‘Privileges, immunity.’ Communications
with an assistance committee member, staff, or volunteers by any person providing information in good
faith are privileged; no lawsuit based upon these communications may be instituted by any person. In
providing assistance services, the board, members of
assistance committees, staff, and volunteers designated by the board shall be immune from suit for any
conduct in the course of their official duties.
3. ‘Confidentiality.’ All communications with
an assistance committee member, staff, or volunteer,

App. 69
and all records of program assistance to a person are
confidential and shall not be disclosed, except in any
of the following circumstances:
a. With the express consent of the person
provided assistance.
b. When required as a condition for monitoring.
c. When reasonably necessary to prevent
death or substantial bodily harm to the person assisted or to another.
d. When reasonably necessary to prevent
child abuse or elder abuse.
e. When reporting is mandated by other
law.
Wisconsin Supreme Court Rule 10.06
Executive committee.
(1) MEMBERS’ SELECTION. The executive committee consists of the president, the president-elect, the
immediate past president, the chairperson of the
board of governors, one representative each from the
nonresident lawyers division, government lawyers division, young lawyers division, and senior lawyers division selected from their board of governors representatives and 6 additional members elected annually
by the board of governors at its final meeting of the
fiscal year. The 6 additional members shall be elected
from among the governors-elect and the current governors who will serve on the board of governors during the following fiscal year. A vacancy occurring in

App. 70
the selected membership may be filled by action of the
board of governors.
(2) POWERS. The executive committee may exercise
all the powers and perform all the duties of the board
of governors between the meetings of the board except
the executive committee shall not, unless otherwise
authorized by the board of governors: amend the bylaws; make rules or regulations governing nominations or elections; prescribe regulations for proceedings before grievance committees; or initiate the taking of any referendum or poll of members of the association. The executive committee shall directly receive and act upon all reports of committees on disciplinary matters without reporting to the board of governors. The minutes relating to disciplinary matters
shall be kept separate from the general minutes and
shall be confidential. The executive committee shall
prepare an annual budget for
submission to the board of governors and shall perform such other duties as the board of governors may
prescribe.
Unless otherwise ordered by the board of governors, the executive committee shall not express publicly any opinion on any matter including legislation
of major public interest or concern or of major importance to the members of the association. A summary of the general minutes of each meeting of the
executive committee shall be provided to the membership in an official state bar publication.

App. 71
(3) Meeting; Quorum. The executive committee
shall meet at the call of the president, or at the call of
the executive director upon the written demand of at
least 6 of its members. All members shall be given at
least 48 hours' notice by mail or telephone of the time
and place of any meeting. A majority of all members
constitutes a quorum. No action may be taken by the
committee except upon the concurrence of at least a
majority of all members. The concurrence may be registered by mail, telephone, facsimile, or e-mail.
SCR Chap. 10 Appendix, Art. 1, § 3
PENALTY FOR NONPAYMENT OF DUES.
(a) Any member admitted to the State Bar prior to
July 1 whose dues are not paid by September 1 shall
be notified of his or her delinquency and the consequent penalties by certified mail sent to the member's
last known address prior to October. Failure to pay
the dues by October 31 shall automatically suspend
the delinquent member. The names of all members
suspended from membership by the nonpayment of
dues shall be certified by the Executive Director to the
Clerk of the Supreme Court and to each judge of a
court of record in this state, after first mailing a copy
of such list to each suspended member 10 days before
it is filed with the Supreme Court.
(b) Any member admitted to the State Bar on
or after July 1 and whose dues are not paid within 60
days after the due date stated on his or her initial
dues statement shall be notified of his or her delinquency and the consequent penalties by certified mail

App. 72
sent to the member's last known address within 90
days after the initial due date. Failure to pay initial
dues within 120 days from the initial due date shall
automatically suspend the delinquent member, and
the Executive Director shall certify such suspension
in the manner provided by these bylaws.
Wisconsin Supreme Court Rule 21.01
Components.
(1) The lawyer regulation system consists of the
following:
(a) Office of lawyer regulation, provided in
SCR 21.02.
(b) District committees, provided in SCR
21.06.
(c) Preliminary review committee, provided in
SCR 21.07.
(d) Referees, provided in SCR 21.08.
(e) Board of administrative oversight, provided in SCR 21.10.
(f) Supreme court.
Wisconsin Supreme Court Rule 21.02
Office of Lawyer Regulation.
(1) The office of lawyer regulation consists of the
director, investigative and support staff, and staff
counsel and retained counsel. The office receives and
responds to inquiries and grievances relating to attor-

App. 73
neys licensed to practice law or practicing law in Wisconsin and, when appropriate, investigates allegations of attorney misconduct or medical incapacity,
and may divert a matter to an alternatives to discipline program. The office is responsible for the prosecution of disciplinary proceedings alleging attorney
misconduct and proceedings alleging attorney medical incapacity and the investigation of license reinstatement petitions. The office has discretion whether
to investigate and to prosecute de minimus violations.
Discretion permits the office to prioritize resources on
matters where there is harm and to complete them
more promptly.
(2) The office of lawyer regulation functions pursuant to the procedures set forth in SCR chapter 22.
Wisconsin Supreme Court Rule 21.09
Supreme Court.
(1) The supreme court determines attorney misconduct and medical incapacity and imposes discipline or directs other action in attorney misconduct
and medical incapacity proceedings filed with the
court.
(2) The supreme court shall meet with the director, with the preliminary review committee, and with
the board of administrative oversight annually to discuss the operation of the lawyer regulation system
and consider improvements in its operation.

